<html>
<title> - DRINKING WATER AND PUBLIC HEALTH IMPACTS OF COAL COMBUSTION WASTE DISPOSAL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







   DRINKING WATER AND PUBLIC HEALTH IMPACTS OF COAL COMBUSTION WASTE 
                                DISPOSAL

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2009

                               __________

                           Serial No. 111-88





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-859                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman

JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont

                                  (ii)
                 Subcommittee on Energy and Environment

               EDWARD J. MARKEY, Massachusetts, Chairman
MICHAEL F. DOYLE, Pennsylvania       RALPH M. HALL, Texas
G.K. BUTTERFIELD, North Carolina     FRED UPTON, Michigan
CHARLIE MELANCON, Louisiana          ED WHITFIELD, Kentucky
BARON HILL, Indiana                  JOHN SHIMKUS, Illinois
DORIS O. MATSUI, California          JOHN B. SHADEGG, Arizona
JERRY McNERNEY, California           STEVE BUYER, Indiana
PETER WELCH, Vermont                 GREG WALDEN, Oregon
JOHN D. DINGELL, Michigan            SUE WILKINS MYRICK, North Carolina
RICK BOUCHER, Virginia               JOHN SULLIVAN, Oklahoma
FRANK PALLONE, Jr., New Jersey       MICHAEL C. BURGESS, Texas
ELIOT L. ENGEL, New York
GENE GREEN, Texas
LOIS CAPPS, California
JANE HARMAN, California
CHARLES A. GONZALEZ, Texas
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
JIM MATHESON, Utah
JOHN BARROW, Georgia

















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachussetts, opening statement..............     1
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     3
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     4
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     5
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................     6
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................    95
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    97
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    99
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, prepared statement...............   103

                               Witnesses

Robyn Whitaker-Pierce, Resident of Chesapeake, Virginia..........     8
    Prepared statement...........................................    11
Gayle Queen, Resident of Gambrills, Maryland.....................    14
    Prepared statement...........................................    17
Raymond Hunt, Jr., Resident of Waterflow, New Mexico.............    19
    Prepared statement...........................................    21
Carla Hunt, Resident of Waterflow, New Mexico....................    19
    Prepared statement...........................................    21
Lisa Evans, Senior Administrative Counsel, Earthjustice..........    33
    Prepared statement...........................................    36
    Answers to submitted questions...............................   139
Mary A. Fox, Ph.D., MPH, Assistant Professor, Johns Hopkins 
  Bloomberg School of Public Health..............................    61
    Prepared statement...........................................    63
Ken Ladwig, Senior Program Manager, Electric Power Research 
  Institute......................................................    68
    Prepared statement...........................................    70
    Answers to submitted questions...............................   153
Donald McGraw, M.D., Pittsburgh, Pennsylvania....................    76
    Prepared statement...........................................    78
    Answers to submitted questions...............................   167

                           Submitted material

Letter of June 18, 2009, from Members of Congress to U.S. EPA, 
  submitted by Mr. Shimkus.......................................   105
Letter of July 17, 2009, from Illinois EPA to U.S. EPA, submitted 
  by Mr. Shimkus.................................................   111
Letter of October 1, 2009, from City of Springfield, Illinois to 
  U.S. Conference of Mayors, submitted by Mr. Shimkus............   113
Letter of April 10, 2009, from Pennsylvania Department of 
  Environmental Protection, submitted by Mr. Doyle...............   116
Letter of July 28, 2009, from Pennsylvania Public Utility 
  Commission, submitted by Mr. Doyle.............................   118
Resolution by Environmental Council of the States, submitted by 
  Mr. Shimkus....................................................   122
Letter of April 1, 2009, from Association of State and 
  Territorial Solid Waste Management Officials to U.S. EPA, 
  submitted by Mr. Shimkus.......................................   125
Letter of September 19, 2009, from Unions for Jobs and the 
  Environment to U.S. EPA, submitted by Mr. Shimkus..............   134
Letter of November 17, 2009, from U.S. Chamber of Commerce to 
  U.S. EPA, submitted by Mr. Shimkus.............................   136

 
   DRINKING WATER AND PUBLIC HEALTH IMPACTS OF COAL COMBUSTION WASTE 
                                DISPOSAL

                      THURSDAY, DECEMBER 10, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 2322 of the Rayburn House Office Building, Hon. Edward 
Markey [Chairman of the Subcommittee] presiding.
    Members present: Representatives Markey, Doyle, McNerney, 
Matheson, Barrow, Upton, Stearns, Whitfield, Shimkus, Pitts and 
Scalise.
    Also present: Representatives Sarbanes and Forbes.
    Staff present: Greg Dotson, Chief Counsel, Energy and 
Environment; Tracy Sheppard, Senior Counsel; Melissa Bez, 
Professional Staff Member; Caitlin Haberman, Special Assistant; 
Peter Ketcham-Colwill, Special Assistant; Jackie Cohen, 
Counsel; Karen Lightfoot, Communications Director, Senior 
Policy Advisor; Lindsay Vidal, Special Assistant; Mitchell 
Smiley, Special Assistant; Jerry Couri, Republican Professional 
Staff; Andrea Spring, Republican Professional Staff; and 
Garrett Golding, Republican Legislative Analyst.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Good morning, and we welcome you all to the 
Subcommittee on Energy and Environment, and this hearing is 
called to order.
    Almost 1 year ago, on December 22, 2008, hundreds of acres 
of land in Tennessee were buried in toxic sludge after an 
accidental breach at a disposal pond at a TVA plant. The breach 
resulted in the release of 1.1 billion gallons of the 
byproducts of burning coal. It covered more than 300 acres of 
land in a gray, poisonous muck, damaging homes and property and 
tainting nearby rivers. This toxic stew contained high levels 
of arsenic, selenium, mercury and other dangerous substances. 
It was quite literally a poisonous lump of coal dumped on a 
nearby community just 3 days before Christmas last year.
    Exposure to these pollutants can wreak havoc on human 
health including increased risk of cancer, birth defects, 
reproductive problems, gastrointestinal illnesses, damage to 
the nervous system and kidneys, and learning disabilities to 
children. They have also been associated with acute symptoms of 
hair loss, severe muscle cramps, nausea, joint pain, confusion 
and blistering skin. The cleanup for the catastrophic event 
that occurred in eastern Tennessee is estimated to cost more 
than $1 billion. It completely destroyed three homes, displaced 
all nearby residents, crumpled docks and wiped out roads.
    The Kingston catastrophe caused the media, the public and 
the Congress to focus attention on EPA's longstanding failure 
to promulgate meaningful regulations for the disposal of this 
material. Despite the litany of damage from coal combustion 
waste, current regulations have been left largely to the States 
resulting in widespread inconsistencies in waste management.
    In the wake of the TVA disaster, I wrote two letters to the 
EPA addressing the lack of national policy to regulate and 
monitor coal combustion waste and its impact on health and the 
environment. A decade after announcing that national 
regulations were needed, the EPA finally said in March of this 
year that it would propose regulations for coal waste disposal 
by the end of 2009. Every State in the Nation currently gets at 
least some of its electricity from coal-fired plants. Each year 
these power plants along with industrial facilities produce 
approximately 130 million tons of coal combustion waste. Every 
day in almost every State, coal ash is dumped into ponds, dry 
landfills and abandoned mines. Accidental breaches are not the 
only threats associated with the management of coal combustion 
waste. The slow leakage of the toxins the waste contains even 
when dumped into dry but unlined storage sites has poisoned 
water supplies, damaged ecosystems and jeopardized public 
health. And what oozes into the soil and water are dangerous 
substances such as arsenic, cadmium, selenium and mercury. In 
fact, the National Academy of Sciences has identified 24 
potentially hazardous metals in coal ash. As EPA moves forward 
with its regulations, it must ensure that public health is 
protected for all disposal practices, not just the type of wet 
impoundment ponds that led to the Tennessee disaster.
    The good news is, that these materials can be recycled. In 
fact, industry estimates that 45 percent of coal ash is 
currently being beneficially reused. However, not all methods 
of reuse are equally beneficial when it comes to protecting 
public health. For example, using coal fly ash to make concrete 
doesn't allow the dangerous chemicals to leach out and also 
likely to reduce greenhouse gas emissions compared to other 
means of producing concrete. But other so-called beneficial 
uses are less protective of public health. Using the material 
as filler for some road embankments or, as we will hear today, 
to build golf courses can lead to leakage of the very same 
poisons into the drinking water. EPA should encourage the 
beneficial uses that truly do protect public health and derive 
economic benefit to the industry while restricting those that 
have the potential to cause economic or physical harm to nearby 
communities. That is what the subject of today's hearing will 
be. We look forward to hearing from our witnesses.
    Mr. Markey. Let me now turn and recognize the gentleman 
from Kentucky, Mr. Whitfield.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Mr. Chairman, thank you very much for this 
important hearing on drinking water and public health impacts 
on coal combustion waste disposal.
    As you have already stated, 50 percent of our electricity, 
in fact, a little bit more than that, is produced by coal in 
the United States and 92 percent of electricity in my home 
State of Kentucky is produced by coal. I definitely believe it 
is important that we continue to be able to use coal in the 
United States for two main reasons. First of all, it provides 
cheap electricity which creates jobs and makes us more 
competitive in the global marketplace, and second of all, it is 
our most abundant resource here in the United States since we 
have about a 250-year reserve of coal.
    Now, unfortunately, since the 111th Congress began, many, 
we believe, have been targeting coal specifically for the 
purpose of making it more difficult to burn coal in the United 
States in the long term. I think one of the objectives of cap 
and trade is certainly to make it more difficult to use coal, 
the Obama Administration recently in its endangerment finding 
to give them an opportunity to regulate CO<INF>2</INF> 
emissions which they had never done before. We have seen that 
it is much more difficult to get permitting to burn coal. And 
then we know that in Copenhagen that coal is a principal target 
as they discuss climate change issues.
    Now, I don't think any of us are opposed to examining newer 
methods that will allow coal to be used in a cleaner way and we 
are totally supportive of that, and I know that today we have 
witnesses in the first panel who have experienced some health 
problems. They will tell us about what it is from. And 
obviously we want to do everything that we can do to protect 
health. But as the chairman has already indicated, there are 
many beneficial uses in building materials and as structural 
fill for building sites using this material. And I would also 
point out that EPA has looked at this issue repeatedly about 
whether or not coal ash should be listed as a hazardous 
material. States already regulate this material, and we are 
willing to work with the federal government to regulate this 
material, but if you are going to try to classify it as a 
hazardous material, then there is going to be a major issue on 
that because when you burn a material at over 3,000 degrees 
temperature, it is very difficult to see how the residue can be 
very hazardous, and I might say that EPA looked at this in 1993 
and determined not to regulate. They looked at it in 1999 and 
decided not to regulate. They looked at it in 2000 and decided 
not to regulate. And then back in 1980 when Congress first 
passed the Bevel amendment, they determined that this was not a 
hazardous product.
    So I think that it is very important that we have this 
hearing but I think it is also important that we proceed in a 
balanced way because if America is going to continue to create 
jobs and if America is going to continue to be competitive in 
the global marketplace, then there is not any way that we can 
eliminate the use of fossil fuel the way Albert Gore and others 
are suggesting that we do.
    So this type of hearing is vitally important because it 
gives us an opportunity to look at it in a balanced approach. 
We look forward to the testimony of those witnesses on our 
first panel as well as all witnesses today. And with that, I 
would yield back the balance of my time.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Pennsylvania, Mr. Doyle.
    Mr. Doyle. Thank you, Mr. Chairman, for calling this 
important hearing. I am going to waive my opening statement and 
look forward to hearing from the witnesses.
    Mr. Markey. The gentleman's time will be preserved. The 
Chair recognizes the gentleman from Georgia, Mr. Barrow.
    Mr. Barrow. Thank you, Mr. Chairman. I will waive opening.
    Mr. Markey. The Chair recognizes the gentleman from 
California, Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman, for hosting this 
important hearing on the disposal of coal waste, and we are 
going to need coal for a long time to come so we better figure 
out how to use it properly and how to dispose of the waste.
    Unfortunately, some of the waste products have caused major 
health problems, and I thank the witnesses for coming forward 
today to discuss this. I know it is difficult to come out here 
and sit in front of a panel, so you deserve credit for that. I 
know there are some good ways to do it. As the chairman 
mentioned, encasing it in concrete is an excellent opportunity 
for us to use that in a beneficial way but we do need to be 
careful about using it in other ways. I look forward to the 
testimony today to make some decisions and to help the EPA in 
their regulatory process.
    Thank you, Mr. Chairman.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Illinois, Mr. Shimkus.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman, and I do appreciate 
the hearing today and appreciate the witnesses on both panels 
for coming in, and we will hear issues that affected the lives 
of individuals. I always also like to highlight how what we do 
here in Washington affects other people's lives, and I always 
have historically put up this poster of 1,200 miners who lost 
their jobs last time we enacted clean air regulations. This 
isn't just one mine in my district. In Ohio, Ohio lost 35,000 
coal-mining jobs. So we better tread carefully on how we 
balance the environmental risk with what we do see, and I agree 
with my colleague from Kentucky, an all-out attack on coal 
mining, coal use in this country and so I will also be focusing 
on the impacts to these guys who come from real families, real 
communities and where small communities in rural parts of my 
State were destroyed because of the attack on coal.
    I also would like, Mr. Chairman, to ask unanimous consent 
for three letters to be submitted in the record. I know you 
will want to look at those.
    [The information appears at the conclusion of the hearing.]
    Mr. Markey. Without objection, so ordered.
    Mr. Shimkus. The first letter is from 74 Members of 
Congress to Lisa Jackson at the EPA regarding our position 
against listing coal combustion byproducts as hazardous. In 
fact, there are at least 15 members of this committee on this 
letter on both sides of the aisle. This letter is an original 
letter by our good friend from Pennsylvania, Mr. Tim Holden. 
The second is from the Illinois EPA. In it, they state, ``Based 
on our past experience, it is our position that classifying 
coal combustion waste as a hazardous waste is not warranted and 
would place unnecessary barriers on its beneficial use and 
reuse in the future. We feel our approaching of regulating coal 
combustion waste under the non-hazardous solid-waste 
regulations is protective of both human health and the 
environment and is an effective and logical way to safely 
manage coal combustion waste,'' and that is from the Illinois 
EPA. The last letter is from the Office of Public Utilities in 
the city of Springfield, Illinois, which is partially in my 
district. In it, they say, ``Listing coal combustion byproducts 
as hazardous waste would have dramatic adverse consequences for 
the city of Springfield.'' That is our State capital. And that 
the CWLP, which is the city water, light and power, due--``City 
of Springfield CWLP due to the increase in cost associated with 
the managing and disposing of coal combustion byproducts as 
well as a lack of availability of coal combustion byproducts 
for construction purposes.'' They go on to associate the cost 
of CCBs were listed as hazardous. They identify four locations 
as facilities that are permitted to receive RCRA hazardous 
waste. These amounts reflect treatment and transportation 
costs, and we have in the millions of dollars. What does this 
mean? We better tread very, very carefully. When this country 
is in one of the worst economic periods that I can remember, to 
have another attack on good jobs in this country is 
unwarranted. So I would caution us to go carefully, Mr. 
Chairman. I yield back my time.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the gentleman from Maryland, Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I appreciate your 
giving me the opportunity to participate briefly here.
    Mr. Markey. I am sorry. I just want to remind you that the 
gentleman is not on the subcommittee, so let me recognize the 
remaining members of the subcommittee. The gentleman from 
Florida, Mr. Stearns, is recognized.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Thank you, Mr. Chairman.
    You know, when I lived in Massachusetts, I had a coal-
burning furnace to try and keep my house warm because it was so 
expensive, and then I had a wood stove. You know, when I 
finished, I used to take the coal ash and put it on my garden, 
and every year that garden worked just so remarkably well. It 
worked to the benefit of the garden and me because we had fresh 
vegetables. And I used to take the ash from the wood too and I 
would put it in the garden, so I would just say to the chairman 
and to the others that I think there is some redeeming value to 
some of this coal ash.
    I note, Mr. Chairman, that the EPA Administrator Jackson is 
not here to testify, and it would be very helpful to have her 
here to answer some of the questions about this issue. As I 
understand it, for three decades EPA has resisted subjecting 
this coal ash to federal hazardous waste management regulation, 
and more specifically in 1993 and 2000, the EPA conducted two 
regulatory determinations on the management and use of coal 
combustion products which determined that, ``in conducting 
these two regulatory determinations, EPA did not identify 
any,'' let me repeat, ``any environmental harm associated with 
the beneficial use of coal combustion products'' and concluded 
in both determinations that these materials do not, do not 
warrant regulation as a hazardous waste material. So it is 
pretty clear that the EPA has a strong message on this and the 
EPA is not here. So I think, Mr. Chairman, it would be helpful 
for the committee if you explain why the EPA Administrator is 
not here to help us further explain her remarks on this coal 
ash.
    Imposing a hazardous waste designation on this coal ash 
will do little to prevent the situation that occurred at the 
TVA's Kingston, Tennessee, plant and will only force greater 
landfilling of it while eliminating the environmental benefits 
of using coal ash. So I think, Mr. Chairman, in light of my 
opening statement, we still have some questions to ask.
    Mr. Markey. The gentleman's time has expired. The gentleman 
from Louisiana, Mr. Scalise.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Mr. Chairman. I appreciate the 
opportunity to discuss the impacts of coal combustion waste 
disposal.
    While I strongly support measures that protect the safety 
of our Nation's drinking water, I am concerned about the 
negative implications that could result from the regulation of 
coal combustion waste by EPA as a hazardous waste instead of 
under RCRA's subtitle D non-hazardous waste authority. This 
issue involves a very critical component to our country's 
overall energy policy, and an EPA decision to regulate coal 
combustion waste as hazardous waste could be devastating to our 
Nation's economy.
    Mr. Chairman, as we discuss this issue of energy policy in 
general, I also want to take this opportunity to express my 
serious concerns about recent decisions from the current 
Administration and the direction that this Congress is taking 
regarding our energy policy. While we await EPA's final ruling 
on how they plan to regulate coal combustion waste. I also have 
serious concerns about the EPA's recent announcement regarding 
their proposed regulation of greenhouse gases. The EPA's 
regulation of greenhouse gas emissions would result in the 
largest power grab of any United States agency over our 
national economy. The threat of heavy-handed EPA regulation or 
a cap-and-trade energy tax will result in millions of American 
jobs being shipped overseas to countries like China and India, 
who don't have the current environmental regulations that we 
have today. In my home State of Louisiana, thousands of jobs 
will be lost under a cap-and-trade energy tax, and as a matter 
of fact, there is a company in south Louisiana that is 
currently basing their decision to locate in either Brazil or 
Louisiana in part on what Washington does on emissions 
regulations not to mention the Climate Gate scandal, which has 
not only proven that there have been efforts to silence those 
scientists who present evidence to the contrary of global 
warming alarmists would have our world believe about climate 
change, but as we have seen, the science on climate change was 
actually corrupted in an effort to help make their case. It 
seems, Mr. Chairman, that this Administration and those running 
Congress will stop at nothing to pursue this liberal agenda 
that is killing our economy, resulting in thousands of dollars 
in higher electric bills for American families and small 
businesses and shipping millions more American jobs overseas. 
Thank you, and I yield back.
    Mr. Markey. Great. The gentleman's time has expired. All 
time for opening statements of members has expired. So what we 
will do is, we will ask our witnesses to come up to the panel, 
if they would, and I would ask Representative Forbes if he 
would to come over to introduce our first witness.
    Mr. Forbes. Mr. Chairman, first of all, I would like to 
thank the members of the subcommittee for giving me the 
courtesy to join you briefly to introduce one of the witnesses 
on your panel, and I would also like to thank you for holding 
this very important hearing.
    This is an important hearing for at least two reasons. 
First, Members of Congress need to hear from Americans whose 
daily lives have been interrupted because of uncertainty 
surrounding a basic need like safe drinking water. At some 
point today rain or shine, a family from my district will drive 
to their local church, gather around a spigot and bottle up as 
much water as they need to survive the weekend. Over the past 
19 months, hundreds of constituents from my district have not 
been able to drink a single glass of water from their wells 
without fear of consuming poisonous toxins. They have not been 
able to bathe their children without pausing to wonder whether 
they will pass on a deadly disease, and they have not been able 
to finance the education of their loved ones because their 
equity lines of credit on their homes have been devastated.
    The second reason I believe this hearing is important is 
because the members of this committee must be made aware that 
irrespective of any new coal ash regulations, the Environmental 
Protection Agency is already doing a disservice to our 
constituents by providing contradictory test results to some of 
the residents and by withholding hazard scores that could 
highlight dangers threatening the health and welfare of the 
citizens we are supposed to protect. Yesterday, I sent a 
follow-up request to the EPA requesting immediate access to a 
hazard ranking system evaluation and score for the Battlefield 
Golf Club in Chesapeake. This information would provide 
families and constituents from my district an understanding of 
the nature and severity of any toxic contamination on or near 
their personal property. To date, it has been withheld by the 
EPA as a part of the deliberative process.
    Mr. Chairman, if the federal government continues to 
deliberate for another 18 months, constituents from my district 
will continue to live with uncertainty about their drinking 
water, their health and their homes. If the Congress and this 
Administration are truly committed to transparency and 
accountability, certainly we can do better. But rather than 
requiring you to continue to listen to more words from me at 
this time, I would like to introduce you to someone who can 
tell you what it means to live with uncertainty about the 
safety of her family's drinking water. Mrs. Robyn Whitaker-
Pierce is a long-time resident of my hometown of Chesapeake and 
her family owns a home near the Battlefield Golf Course, which 
was built atop a foundation that includes coal fly ash. Her 
family has had to live with the uncertainty as to whether her 
drinking water is safe for many months, and she has a 
compelling story to share. Mrs. Pierce, I want to thank for you 
for taking time to be here today and I know the committee looks 
forward to your testimony.
    Mr. Chairman, thank you for allowing me to introduce Mrs. 
Pierce.
    Mr. Markey. Thank you, Congressman Forbes, and Mrs. 
Whitaker-Pierce, whenever you feel comfortable, please begin.

 STATEMENTS OF ROBYN WHITAKER-PIERCE, RESIDENT OF CHESAPEAKE, 
VIRGINIA; GAYLE QUEEN, RESIDENT OF GAMBRILLS, MARYLAND; RAYMOND 
 HUNT, JR., RESIDENT OF WATERFLOW, NEW MEXICO; AND CARLA HUNT, 
               RESIDENT OF WATERFLOW, NEW MEXICO

               STATEMENT OF ROBYN WHITAKER-PIERCE

    Mrs. Whitaker-Pierce. Good morning. Thank you for your 
time.
    In 2001, our local utility company, Dominion Virginia 
Power, orchestrated an aggressive campaign convincing area 
residents and local city council that a golf course constructed 
with coal ash was not only safe but a great benefit for our 
neighborhood. Residents and local government were assured on 
numerous occasions and in various forums that the use of such 
material posed no threat to our community, and that any and all 
safeguards would be adhered to, and quote fly ash in this 
specific use was ``safe as dirt.''
    We now know differently thanks to the diligent work of a 
local newspaper reporter, Robert McCabe. Mr. McCabe reported 
tests of monitoring wells on a golf course sculpted with 1.5 
million tons of fly ash yielded alarmingly high levels of 
toxins in groundwater. All of the homes in the immediate area 
rely on private wells as our water source. Immediately the 
local city government ordered area wells tested and requested 
the EPA's help in discerning the potential risks to our 
community.
    Nineteen months later, my home has been tested multiple 
times by three different agencies including the EPA and results 
are inconsistent and confusing. Lead levels have been detected 
in excess of three times the EPA's action standard, and on one 
such occasion water tests were done on the same day by three 
firms. Two of the three detected elevated lead levels yet a 
call from the EPA's representative said ``Good news. There is 
no lead in your water.''
    You can imagine my alarm as a mother when the EPA 
representative asked about young children in my home and their 
ages, and later that day, I received a call from a doctor at 
the Centers for Disease Control urging me to get the children's 
lead level tested. The EPA continues to test my water every few 
months and I get those results but to the layperson they are 
confusing and I feel as in the dark now as I was when all this 
started. For example, just Tuesday, 2 days ago, an EPA 
representative came to my home to continue another water test. 
It turns out that all of the tests that have been conducted 
inside my home have been done at the only sink with the only 
dedicated filter, auxiliary filter--let me put it that way--and 
is used least in our home. Consequently, all of the data that 
they have collected to this point is not a true representation 
of our exposure as the water we brush our teeth with and bathe 
with has yet to be evaluated.
    How did this happen? For 5 years, hundreds of truckloads of 
coal ash were dumped daily in our community. We have since 
learned that those same truck drivers and were required to have 
haz-mat licenses, were wearing masks and protective clothing 
yet our children unknowingly played outside amongst this 
dangerous dust. Neighbors recall coming home and finding layers 
of gray chalky residue on vehicles and pool surfaces. None of 
my neighbors had any inkling of the dangers we were being 
exposed to. Dominion did but we didn't.
    We now know that experts warn of the dangers of heavy metal 
toxins leaching from coal ash when exposed to water. Yet coal 
ash was spread over a 220-acre site in our backyards in a 
region with a notoriously high water table, I think we have 
some pictures. Ladies and gentlemen, this is someone's yard, 
and please understand that this is just a small area but boy, 
if you could flip over to the next picture, that is my street. 
We have recreational boating every time a storm comes through 
to our neighborhood. Please explain to me how it is that coal 
ash, no liners, was thrown into my backyard in an area like 
this, and this is not a one-time occurrence. Our streets and 
yards are underwater when storms come, but even after Dominion 
Virginia Power commissioned feasibility studies that 
discouraged using fly ash as a construction material, they 
pushed on. Permits for a septic system on the golf course 
location were denied by the health department due to the high 
water table, yet that 1.5 million tons of fly ash was dumped on 
the same site, and Dominion pushed on.
    Just 50 miles from Chesapeake, between 1957 and 1974, fly 
ash from Dominion's Yorktown power generating station was 
disposed of in four abandoned burrow and gravel pits. This area 
later was designated by our own EPA as the Chisman Creek 
Superfund site. Even in light of this previous debacle, 
Dominion pushed on in Chesapeake.
    The reverberation from this lack of regulation has been 
enormous. Numerous families have recently been diagnosed with 
cancer, asthma and autoimmune diseases, not to mention our fear 
for our children's future health. Are these illnesses related 
to dust and water exposure? It may take years for the effects 
of our exposure to this toxic waste dump to manifest 
themselves.
    Since May of 2008, my family and other families in our 
neighborhood have not used their tap water to cook or drink. We 
have been reduced to traveling to a municipal cistern where two 
to three times per week we fill empty gallon jugs with water to 
bring back home for our use. Most of us still bathe and brush 
our teeth with the tap water. What other alternative do we 
have, and who is there to provide for our safety?
    The financial ramifications are devastating. As a 
professional realtor, I can assure you that as long as the 
specter of fly ash looms over our community, our houses will 
not sell. We are literally held hostage in our homes not at the 
barrel of a gun but by the cesspool of poisons in our back 
yards.
    We have retired military veterans who have proudly served 
our country for 20-plus years. They want to move home but they 
can't because no one will buy their house. Elderly couples who 
have lost a spouse and cannot keep up with their homes want and 
need to downsize but they cannot. My husband has been a self-
employed electrical contractor for over 25 years. The equity in 
our home is our retirement. We have been wiped out. There is no 
equity in a home no one will buy. How will we put our boys 
through college, and what am I going to do with my children if 
my husband passes away? One family in our neighborhood cannot 
qualify for financial aid for their child's college education 
because they own their home, but it is worthless.
    My children are afraid. Their friends' parents are 
concerned about their children's exposure when visiting my 
home. An 11-year-old was at our house for a sleepover and asked 
me, ``Miss Robyn, I just washed my hands. Do I need to do 
something about the poison water?'' I was just excited that he 
washed his hands after going to the bathroom, frankly.
    But the Virginia health department has been no help. 
Virginia's Department of Environmental Quality let this happen 
again and has been a colossal disappointment. The EPA, they are 
out to lunch. I have absolutely no faith in an environmental 
protection agency that continues to come to my house but until 
19 months after coming to my house just realizes that they are 
testing the wrong tap, the tap that my children brush their 
teeth and bathe with.
    We certainly cannot expect the local power company to 
operate in a conscientious manner, if our government doesn't 
help. We the public are stunned to find there is no regulation 
in place to protect us. The current definition of beneficial 
use quite frankly is an oxymoron. As long as coal ash remains 
unregulated, we the people have no protection from the 
companies who use beneficial use as a cover for corporate 
malfeasance.
    In our opinion, the only hope we have is for the far-
reaching hand of our federal government to mandate the EPA to 
designate coal ash as a hazardous waste, to regulate its use 
with the strictest of protocols, and order that this tumor in 
my community gone. And ladies and gentlemen, until that is 
done, the inmates are running the asylum.
    [The prepared statement of Mrs. Whitaker-Pierce follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Markey. We thank you very much for being here.
    Let me now turn to Representative Sarbanes from Maryland to 
introduce our next witness.
    Mr. Sarbanes. Thank you, Mr. Chairman. I appreciate your 
giving me the opportunity to participate this morning in the 
hearing, and I thank you for the issues that you are going to 
be looking at. I have the unhappy distinction that this is now 
the second hearing that has occurred in this Congress, the 
first was in Natural Resources and Mineral Resources 
Subcommittee, in which a constituent of mine will be testifying 
on the effects of coal combustion waste, fly ash, in terms of 
exposure to that harmful substance. And I congratulate Ms. 
Queen, who I am going to introduce now, for her willingness to 
come forward and testify on what the effects have been on her 
and her family because they have been devastated, just as we 
have heard from Mrs. Whitaker-Pierce.
    Let me introduce Gayle Queen. Before her illness forced her 
to stop working, she was a supervisor in the family support 
division of the Department of Social Services in Glen Burnie, 
Maryland, which is in my district, where she helped young women 
obtain jobs, earn GEDs and go back to school. She moved to her 
present home in Gambrills, which is part of my district and 
which is where the witness in the Natural Resources Committee, 
Norm Harvey, also resides. Ms. Queen moved to Gambrills in 
1997. She has two adult sons and her younger son and her three 
daughters living with her were exposed to the coal ash 
contamination until they moved in 2008. The leaching of this 
fly ash into the drinking water supply is a really critical, 
critical issue for us to examine.
    Again, I appreciate your taking the time and resources of 
this committee to focus on it. I thank Ms. Queen for being here 
and we look forward to her testimony.
    Mr. Markey. Great. We thank the gentleman, and Ms. Queen, 
whenever you are ready, please begin.

                    STATEMENT OF GAYLE QUEEN

    Ms. Queen. Good morning, and thank you. My name is Gayle 
Queen and I live at 2401 Queen Mitchell Road in Gambrills, 
Maryland. My family has lived in this area for over 100 years. 
I am a 56-year-old and a widow. I am no longer employed. I 
lived in Gambrills community while for over 10 years during 
that time 4.1 million tons of coal ash was dumped next to my 
home by a power company.
    I am here to tell you about what happened in Gambrills, 
Maryland, and how the contamination of the air and drinking 
water has affected my health, the health of my family and 
community. I am here today to ask you to make sure that 
Congress passes legislation so that another community doesn't 
have to suffer like my community.
    The coal ash was dumped into an unlined 80-foot-deep pit on 
84 acres. The coal ash went into an aquifer that supplies my 
community drinking water and we all breathe the dust in. Once 
the community was informed of the problem in 2007, we were 
given no help by the State or federal government. Later, one of 
the solutions was to hook up some of my neighbors to a fire 
hydrant for water. The hoses froze in the winter. For other 
people, bottled water was supplied and it is still supplied 
today. Every 2 weeks I get bottled water to wash, bathe, to do 
everything with every 2 weeks, but this did nothing for our 
past exposure both in our drinking water and in the air.
    The problem in Gambrills with coal ash started in the 1990s 
at another coal ash dump site when the power company dumped 
coal ash in another community. The residents of that community 
complained and they moved it down to the dumping area that I 
showed you over there. When it was required to have a continued 
36-inch-thick layer of clay at the bottom of the ash pit, the 
power company decided to dump the coal ash near my home in 
Gambrills. There was supposed to be no contact between the coal 
ash and the surface of the groundwater with a four-foot 
separation between the coal ash and the groundwater. No 
expense, no liner or 30-inch layer of clay was required at the 
Gambrills site. Sadly, the coal ash went directly into standing 
water and sand and gravel pit which had excavation as deep as 
80 feet. There was no liner or four-foot barrier either. The 
truck drivers who dumped the coal ash dumped it without any 
remorse. My community was never warned of the danger of toxic 
coal ash or that it would go into our water or our lungs and 
cause injury.
    Starting in 1999 and through 2007, tests showed that 
arsenic, iron, manganese and sulfate were being leached at 
dangerous levels and finally these dangerous chemicals got into 
our private wells.
    I have a well at my home. I rely on my well water to 
provide cooking, drinking and bathing water. In 2007, the power 
company began providing me bottled water. Before this, I had 
never heard of coal ash or its dangers and didn't know this 
toxin was being dumped in my community. If I had known about 
the dangers, I would have protected me and my family and 
community long ago. But we didn't know of the dangers or even 
that dumping was going on.
    Thankfully, the power company did finally take 
responsibility for the situation by helping the community with 
these problems. But the contamination of the water remains. It 
should never have happened.
    Because of the coal ash contamination, I have lost both my 
financial security and my health. My biggest monetary asset, my 
home, is worthless. I cannot afford to pay the mortgage after 
the death of my husband in 2006, and I may have to file for 
bankruptcy or foreclosure because it is not worth anything.
    Because of the coal ash, I have trouble breathing, and I am 
not a smoker. My doctor has told me I have the lungs of an 80-
year-old woman because of breathing in something, coal ash. I 
am terrified about my future health. My husband died in 2006 
from renal failure, and I worry that my organs will fail, I 
will get cancer or I will get another disease because of my 
exposure to this ash. I also worry about my grandchildren. They 
drank the water, they bathed in it, they brushed their teeth. 
Will they get a disease, too? No one can tell me for sure. But 
I do know they never should have been exposed to this stuff.
    I ask that you pass legislation to protect people like me 
and my family. If the Environmental Protection Agency had the 
authority to require liners and force power companies not to 
dump close to drinking water systems, what happened to me and 
my community would not happen to anyone else. We do not have 
the power to protect ourselves. These companies and the State 
agencies are not protecting us. Coal ash contamination ruins 
the lives of the people in the community and our environment. 
It cannot be allowed to happen again. Thank you very much.
    [The prepared statement of Ms. Queen follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Markey. Thank you, Ms. Queen, very much.
    Our final witness is Mr. Raymond George Hunt, Jr. He and 
his family have lived in Waterflow, New Mexico, as sheep 
ranchers for generations. Mr. Hunt and his family operate a 
small business in supply meat to the local Native American 
tribes in the Four Corners area of New Mexico. Mr. Hunt's home 
is adjacent to the San Juan Generating Station of Public 
Service Company of New Mexico and the San Juan coal mine 
operated by BHP, and he and his family have been directly 
impacted by the coal combustion waste disposal practices at 
these facilities. So we welcome you, sir. Please begin.

                 STATEMENT OF RAYMOND HUNT, JR.

    Mr. Hunt. Thank you, sir, for letting me attend this.
    I own and operate a small family business on land my 
grandfather established in the early 1940s where I raised my 
four children. For generations we drank from the fresh water on 
our property without any adverse effects. Our animals grazed 
nearby and drank from the natural springs and the arroyo during 
the irrigation season. These water sources were healthy and 
very productive for our business, which provides meat to the 
Native American Tribes.
    In 1974, Public Service Company built the San Juan Power 
Plant and began using the dry arroyo to discharge their 
wastewater. They began burying fly ash in the nearby dry 
streambeds, rather than into lined ponds, which then leached 
into our underground aquifers, contaminating our good water 
with very high levels of arsenic, selenium, potassium, 
chromium, lead, sulfate and many others.
    By 1975, after the dumping of the coal ash began, my family 
started to get sick. I was diagnosed with heavy metal poisoning 
with extremely high arsenic, iron, lead and selenium levels. I 
lost nearly 100 pounds in less than a year. I was so weak I 
couldn't stand or walk, and wasn't expected to live. For 
several years, my diet consisted of steamed chicken, squash and 
potatoes. Any variation caused extreme diarrhea, nausea and 
vomiting. My stomach ached and I suffered constant indigestion. 
My wife was sick most of the time with similar symptoms. We had 
difficulty comprehending simple conversations. Her body became 
misshapen causing----
    Mr. Markey. Take your time.
    Mrs. Hunt. My name is Carla Hunt and I am his second wife. 
If it would be all right with you, I will finish his statement.
    My wife was sick most of the time with similar symptoms. We 
both had difficulty comprehending simple conversations. Her 
body became misshapen, causing many complications that remain 
today. Our children lost weight and complained of stomachaches. 
They had constant indigestion and diarrhea. Their hair was 
falling out and unhealthy looking. Their teeth and eyesight 
were compromised to the extent they still wear glasses and 
require frequent monitoring. The children's teachers reported 
that they had difficulty with simple tasks of concentration and 
comprehension. One son was enrolled in special education 
classes throughout his high school years.
    Two days before Christmas in 1982, PNM approached us 
offering us $2,500 to sign a release as a good neighbor gesture 
on their part. We asked them, instead, to cover the cost of 
hooking into the public water system for our family, and they 
refused.
    For two years, we bought drinking water and carried it into 
our home until we could afford the connection fees for the 
public water system. Once we stopped using the well, we began 
slowly to improve. My wife, kids and I had been sick for over 
ten years. My animals were not so fortunate. I watched 1,400 
head of sheep slowly suffer and die from the lack of safe 
drinking water. Within 2 years I lost my entire sheep herd and 
took outside jobs, rather than risk selling contaminated meat 
to my customers.
    Although they lined the ponds, as required by an EPA 
enforcement action and fine in 1984, PNM set up an agreement 
that the fly ash would be returned to the neighboring BHP San 
Juan Coal Mine and buried in the unlined pits there. The result 
is that the fly ash and scrubber sludge continues to 
contaminate the arroyo and groundwater through unlined sites.
    My children are grown and married now. Two sons have served 
several tours of duty in Iraq, Afghanistan and Germany. All 
have some evidences of the childhood problems they experienced 
due to the polluted water. My daughters have had very difficult 
pregnancies and deliveries, which doctors have said may be the 
result of the childhood poisoning. I have three grandchildren 
who have been diagnosed autistic, also linked to heavy metal 
poisoning in their mothers, and another who is ADHD. My brother 
developed multiple sclerosis and spent 20 years in a care unit. 
My father died of cancer. Four of my stepbrothers and sisters 
have died prematurely due to cancer and cancer-related 
illnesses. All were under the age of 40 and healthy, athletic 
children throughout their high school years with no apparent 
contributing illnesses. All of them drank from these same 
polluted water wells and streams. I rely heavily on others to 
help me with the management and operation of my business, 
because, although recovered, I still suffer many side effects 
from the poisoning.
    In conclusion, this is only the story of my family. I have 
many neighbors with similar stories. Some have lost young 
children. Others have children and parents with major health 
problems. Many have lost their livelihoods, their animals, and 
the ability to provide for their families because of the 
pollution that has come down the Shumway Arroyo and through our 
underground water sources from improperly disposed coal ash. 
They, too, were offered good neighbor settlements from PNM in 
exchange for their silence and agreement to sign a hold 
harmless contract.
    My experience is that the energy industry cannot be 
entrusted with innocent lives or to regulate themselves, for 
the good of the community, in lieu of a profit for their 
stockholders. I urge you to take every measure available to you 
to prevent this from happening to anyone, anywhere in our 
Nation, ever again.
    [The prepared statement of Mr. Hunt follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Markey. Thank you.
    Mr. Hunt. There is one other thing I wanted to mention 
about this. Them poor animals would die and they wouldn't even 
rot. They would mummify. And for the cost of putting in city 
water so we did not have to haul water was only $175, and they 
refused to do that. And, you know, my kids, I dropped out in 
the 8th grade in Kirkland and my kids when the State 
epidemiologist showed up says under the circumstances, only one 
family is not worth investigating. My kids said from age 5 to 2 
we want to be better to our government than what our government 
was to us. And them kids got 52 years perfect attendance.
    Mr. Markey. Thank you, Mr. Hunt, very much, and we thank 
each of our witnesses for your very compelling testimony here 
today.
    The Chair will now recognize himself for a round of 
questions, and any of you can respond to this who would like. 
On our second panel right after you, we will hear from some 
witnesses that the characteristics of coal ash are similar to 
that of dirt or rocks and that the material is extremely 
unlikely to pose a health risk. How would you respond to that 
statement?
    Mr. Hunt. Pardon me?
    Mr. Markey. How would you respond to that statement?
    Mr. Hunt. Coal ash is dangerous stuff, and, just like I 
say, them animals that I had with all--they created a deal by 
the name of polyencephalomalacia, and just like the sheeps they 
would lay down and they couldn't get up because they had 
lesions on the brains and the crows would peck their eyes out. 
And coal ash is a dangerous substance and it needs to be 
controlled rather than the stockholders making a huge profit. 
They need to take care of it in a proper way.
    Mr. Markey. There are no federal regulations in this area. 
The States have regulations or they have responsibility for 
putting regulations on the books. How would you characterize 
the regulations that your State has for protection of families 
against the adverse effects of coal ash?
    Mr. Hunt. Well, in our case, the State of New Mexico had 
full knowledge that our well was polluted, and also the EPA had 
full knowledge and the power plant also, and they did 
absolutely nothing to do anything about it, and I am sure that 
there is laws on the books that they are supposed to regulate 
them but they never did nothing, and like I say, they just 
ignored us like we was nobody.
    Mr. Markey. Ms. Whitaker-Pierce.
    Ms. Whitaker-Pierce. Yes, I would like to comment on that. 
I think that the information that we presented today speaks for 
itself. You have got the Yorktown situation that happened and 
the identical same utility company came back out and did it in 
our backyard. I am not against beneficial use if it is used 
beneficially. I don't think that it has to be one or the other. 
But what there has to be is someone that is going to hold these 
utility companies responsible for disposing of it in ways that 
we know without a question of a doubt are not harmful to the 
general public.
    Mr. Markey. So you are saying your State did not do enough?
    Ms. Whitaker-Pierce. Oh, absolutely--well, I am here. I am 
here. Absolutely no.
    Mr. Markey. Ms. Queen, did your State do enough?
    Ms. Queen. I don't know if they did enough but they did 
fine them $1 million. It was too late then but they were fined 
for $1 million.
    Mr. Markey. Have all of you been provided with water in 
order to deal with the effect of this issue? Did they provide 
water to you, Ms. Queen?
    Ms. Queen. Yes, I still----
    Mr. Markey. You testified that that was the case?
    Ms. Queen. Yes, I still get water.
    Mr. Markey. And do you receive water?
    Ms. Whitaker-Pierce. Sir, we have asked the utility company 
to give us bottled water to see us through this and they have 
across the board rejected it. Our source of water is to go up 
to a, it looks like an outhouse. I wish I had pictures for you. 
The local city government did build a structure around it so 
that we weren't exposed to the elements when we were trying to 
fill up those gallon jugs two to three times a week, but the 
insulation is pouring down around it. I mean, you would be 
appalled at the conditions, and that is how our families in our 
neighborhood get their water is to go to this municipal source 
and fill up jugs.
    Mr. Markey. Let me ask you one more question before my time 
expires. Dominion has stated in correspondence that the 
developer of the Battlefield Golf Club project met all relevant 
Virginia environmental regulations when it used coal ash. Do 
you believe that that is the case?
    Ms. Whitaker-Pierce. No, sir, absolutely not, and my well 
tests say differently.
    Mr. Markey. What regulations were violated in your----
    Ms. Whitaker-Pierce. Well, it is my understanding that the 
rate of bonders was not at the rate that it should have been 
with that coal ash. It is also my understanding that liners 
should have been placed; they were not. The developer, hundreds 
of truckloads on a daily basis took out the good dirt, sold 
that and then replaced it with the coal ash that Dominion paid 
them to take, and my common sense tells me that if the United 
States of America went to some Third World country and paid 
this country to take our toxic waste material off of their 
hands but we turned a blind eye because we weren't quote, 
unquote, personally responsible for making sure that that stuff 
went down the right way, the public outcry globally would be 
outraged.
    Mr. Markey. We thank you. We thank each one of you. Would 
you like to add something?
    Mr. Hunt. Yes. On that situation we had down there, they 
were dumping untreated human waste down through there also, and 
what happened when the State had full knowledge that our well 
was polluted and the kids was involved, they acted like they 
was a subsidy of the big large power company and the large coal 
mine and there is no excuse for that.
    Mr. Markey. Thank you, Mr. Hunt.
    The Chair recognizes the ranking member of the 
subcommittee, the gentleman from Michigan, Mr. Upton.
    Mr. Upton. Thank you, Mr. Chairman. I apologize for being a 
little bit late. We had an important Michigan delegation 
meeting involving the Great Lakes that required all of our 
attendance.
    I appreciate your stories, obviously everyone here. I have 
sympathy for you and the circumstances surrounding that. Ms. 
Queen, I had one question as it related to your testimony. You 
indicated that the waste was put into an unlined landfill. Is 
there a requirement in the State of Maryland that it be a lined 
facility? Do you know if they violated--is there such a 
standard in Maryland, do you know? If you don't know the 
answer----
    Ms. Queen. No, I am not sure, but it is too late now. They 
have one now.
    Mr. Upton. So there is one now?
    Ms. Queen. Now, but----
    Mr. Upton. Now there is a requirement that it has to be put 
into a lined----
    Ms. Queen. Yes. I don't know if it was a requirement before 
but they didn't have one but now I am told there is a liner.
    Mr. Upton. I know in my district in Michigan, in our State 
we have a number of coal facilities and it is my understanding, 
and we are trying to find out for sure, but it is my 
understanding that the waste that isn't used for particleboard 
and shingles and working with asphalt and highways does in fact 
go to a lined facility which would then prevent what happened.
    Ms. Queen. Yes, they do have one now.
    Mr. Upton. Thank you. I yield back.
    Mr. Markey. The gentleman's time is expired. The Chair 
recognizes the gentleman from Pennsylvania, Mr. Doyle.
    Mr. Doyle. Thank you, Mr. Chairman, and all of us obviously 
feel badly about what has happened to you three individuals, 
and you know, the problem is with no national standards, some 
States do better jobs than other states in regulating this 
problem. Some States are doing nothing, which is a real 
problem. In my State of Pennsylvania, our Department of 
Environmental Protection has provided oversight on beneficial 
reuse since 1985 and implemented stringent standards in 1992, 
and Mr. Chairman, I do have letters from our Pennsylvania 
Department of Environmental Protection and Public Utility 
Commission which I would like to submit for the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Markey. Without objection, it will be included in the 
record.
    Mr. Doyle. It basically hopes that as EPA makes this 
rulemaking that they say there is clearly a need for regulation 
of States with lax requirements or no requirements but they 
should look at States that do have stringent requirements and 
are doing this right and not preempt their laws, especially if 
our laws are more stringent than what the federal government 
may end up implementing, so I hope that we don't preempt those 
States that already have strict standards in place in this 
process.
    Ms. Whitaker-Pierce, I am curious, you got conflicting 
results from the testing, right? Did you ever have an 
independent lab? Did you ever you yourself hire somebody? You 
know, I am thinking about what I would do in your situation if 
I started--you know, one person said there is lead and one 
person said there isn't lead, I would want my own independent 
testing, and I was just curious, how many different testers 
were in your home and did you have anybody that was testing 
your water samples for you?
    Ms. Whitaker-Pierce. No, I did not personally commission an 
agency to test the waters. The city of Chesapeake tested the 
waters. They also hired a third party expert firm, J.R. Reed 
and Associates, to do water tests along with the EPA.
    Mr. Doyle. And you also said they all tested from just one 
source in your home and it was a source that had an auxiliary 
filter. Why was that selected and did you ever ask the--were 
you present when the testing was done?
    Ms. Whitaker-Pierce. Yes, sir, I was. I am glad you asked 
because my 5 minutes didn't give me enough time to elaborate on 
that. They had tested in two locations at my home. They have 
tested at the well head and then they have gone in and tested 
at my kitchen tap, and this has been done every single time. 
When I say inconsistencies, sometimes they will come and take a 
first draw and then they will purge the system for 5 minutes 
and then they will purge it for 10 minutes and 20 minutes and 
they will do various tests along that timeline, and then they 
were the ones that said OK, well, we need to go to your kitchen 
tap, but that kitchen tap has the auxiliary filter that I had 
put on when we moved out there.
    Mr. Doyle. Did you tell them that there was a filter on 
that?
    Ms. Whitaker-Pierce. Yes, sir, absolutely, absolutely, and 
when I say that they are conflicting and confusing, the sheet 
that I get, this report that I get has all of the different 
levels that have been detected but I still don't know what the 
EPA standard on arsenic is, for example. I mean, it was just by 
coincidence that I found out that the EPA's level for lead was 
.15 percent, and that was because the city of Chesapeake on 
their documentation included that benchmark.
    Mr. Doyle. So you are getting data but you are not getting 
any experts to sit down----
    Ms. Whitaker-Pierce. No, sir.
    Mr. Doyle [continuing]. I mean, as a layperson to explain 
what that data means in real terms to you and your family?
    Ms. Whitaker-Pierce. No, and I would welcome that. As a 
matter of fact, it was offered by one of our city 
representatives and they said, you know, the EPA is the expert 
so if it is OK with you, what we would like to do with your 
permission is to turn over those results to the EPA and then 
the EPA person can sit down with their results and then explain 
to you what all this means. We are still waiting.
    Mr. Doyle. Thank you.
    Mr. Hunt, was there ever any testing done? I mean, there is 
no disputing what happened to you and your family. You can see 
what happened, and then as you started to drink bottled water 
or other water, you eventually started to recover. Was there 
ever any testing done by any enforcement agency to determine 
what was in your water?
    Mr. Hunt. Well, I am glad you brought that up. What 
happened, there was a lady that lived down the street there. 
Her and her husband both met at BYU and they were very 
outstanding citizens and they had five boys and she was 
pregnant with the sixth one, and what happened, they would come 
down and they would have her open up her basement to allow them 
to go in and pull samples out of the well less than 100 feet 
from the arroyo, and what happened, she was pregnant with the 
sixth son, and what happened, she came down with leukemia and 
she chose not to have any treatment because of her baby, so 
after the baby was born, the baby was a year old when she 
passed away and what happened, the four younger children that 
she has got, they have done missions for the Mormon Church and 
stuff like that, very outstanding people, and they got hormones 
to keep from wetting the bed at night. And there is another 
little boy, his dad owned a dairy and his uncle come running 
across the street one day and he says Joe is drowning, come 
quick, so I run over to see and what it was, it was the 
mother's dad's birthday that day and they had Joe on the floor 
and they were working with him doing CPR and stuff like that 
and you could tell he was dead.
    Mr. Doyle. I saw that and I saw what has happened to your 
sheep. I am saying did anyone ever test this water and issue a 
report----
    Mr. Hunt. Yes, they did test it but they never warned the 
woman down there that died of leukemia. They come to her house 
and make them open the door to pull samples and they never 
warned her about what had happened.
    Mr. Doyle. You never got results?
    Mr. Hunt. None whatsoever.
    Mr. Doyle. Wow. I see my time has more than passed. Thank 
you.
    Mr. Markey. The gentleman's time has expired. The gentleman 
from Kentucky, Mr. Whitfield.
    Mr. Whitfield. Thank you, Mr. Chairman, and thank you three 
people for being with us this morning and explaining your 
personal experiences.
    In listening to your testimony, I think that I understand 
that each of you has well water, you don't have city water, you 
don't have county water but all of you had well water. Is that 
correct?
    Ms. Whitaker-Pierce. Yes.
    Mr. Hunt. I have got city water now but I had to pay to 
hook onto it but at the time we had spring water.
    Mr. Whitfield. OK, but at the time it was spring water or 
well water. And Mr. Hunt, I noticed that in the article out 
there that it said what killed over 1,000 sheep and it says 
rancher, State and PNM. I am not sure what PNM is but it must--
--
    Mr. Hunt. Public Service Company of New Mexico.
    Mr. Whitfield. OK. And then it says that at odds over the 
bad water. So there was no agreement between the State, the PNM 
and you as to whether or not this water was bad or what caused 
the bad water.
    Mr. Hunt. Well, what happened when they hit the Albuquerque 
Journal, it was 13 months that they played around and made them 
animals drink that bad water, and what happened, there was an 
individual that come in out of the New Mexico environmental 
department. They got him out of risk management and they put 
him in as the deputy secretary under the Johnson 
Administration, and then when things started heating up, he 
become the general counsel, and what happened, the State 
ordered the sheep to be hauled off and tested after me feeding 
them for 13 months and watched them die, and when they would 
die we would have to pile them up in piles and burn them, and 
the man come back and he said poor carrot killed the animals 
but you can notify the New Mexico State animal health people, 
and in the document it says all animals was in good nutritional 
condition and I don't know where he got that information from. 
I would really love to know that.
    Mr. Whitfield. But as far as the water that the sheep 
drank, that was well water----
    Mr. Hunt. No, no, that was out of the arroyo there, and 
what happened, after the article come out in Albuquerque 
Journal front page, they sent a surveillance man down there and 
the surveillance man said 500 parts per million on sulfate is 
all that is allowed for animals, and it was eight times above 
that, and they never did nothing. They just sat back and 
laughed at me.
    Mr. Whitfield. All of you it sounds like are not really 
satisfied with the way the State dealt with this, the way the 
State environmental people dealt with this, the way the utility 
companies dealt with it, which is understandable, but I would 
ask did any of you go to an attorney to explore a class-action 
lawsuit or some sort of lawsuit against any of the utility 
companies?
    Mr. Hunt. I tried to do that, and what happened is kind of 
like going down trying to beat the hell out of Mike Tyson. The 
only thing you are going to do is get the hell beat out of you.
    Mr. Whitfield. So you determined that was not in your best 
interest?
    Mr. Hunt. Yes. There is no justice whatsoever in this mess.
    Mr. Whitfield. Well, you know, the chairman mentioned this 
briefly but one of the confusing things for us is, we know that 
EPA has looked at this coal ash repeatedly through the years 
and we know that 1 percent or less of coal ash has trace 
elements of arsenic, cadmium, lead, mercury and selenium in it, 
and the scientists have said, and there is going to be people 
testifying to this later, that fly ash or coal ash has no more 
of these trace elements in it than regular soil and regular 
rocks do. So, you know, it presents a puzzle for us as to 
whether or not--I mean, I think there is probably agreement 
that maybe this should be regulated, that there should be some 
federal regulation, but to classify this as a hazardous 
material from the scientific evidence that I have looked at, I 
mean, I would have some question about that. But from your 
personal experience, though, you are 100 percent certain that 
your problems were caused by your exposure to coal ash. Is that 
correct?
    Mr. Hunt. Absolutely, and when you burn it down and 
condense is up, what happens, it becomes very poisonous.
    Mr. Whitfield. But you did indicate, I heard you say that 
there was proof that there had been some human waste that had 
been----
    Mr. Hunt. That also.
    Mr. Whitfield. So----
    Mr. Hunt. But just like today, they haven't dumped human 
waste in a long time, but it is still up around eight times 
above what is allowed running right into the San Juan River 
right on down towards Mexico.
    Mr. Whitfield. Now, have they corrected this human waste 
issue?
    Mr. Hunt. I have no idea. Nothing would surprise me about 
them people.
    Mr. Whitfield. OK.
    Ms. Whitaker-Pierce. Mr. Whitfield, I would like to respond 
to that.
    Mr. Whitfield. Yes.
    Ms. Whitaker-Pierce. You will also--you can get experts to 
testify to anything that you want to hear. The utility 
companies obviously have a dog in the fight. You can find 
experts out there that will say that absolutely coal ash is 
dangerous, certainly should not be breathed, certainly should 
not be exposed to water, certainly should not be involved in 
one's water system, and there is no doubt in my mind that the 
careless actions and the ineptitude of our EPA and our local 
government and our State governments to regulate this and make 
sure that people are acting responsibly is the reason that we 
are all here today.
    Mr. Whitfield. Now, Ms. Pierce, did you consider legal 
action or did you have the same view as Mr. Hunt?
    Ms. Whitaker-Pierce. Well, we are currently represented, 
yes, by counsel to try to get the right thing done here.
    Mr. Whitfield. So you are in litigation now or at least you 
have retained an attorney to explore it?
    Ms. Whitaker-Pierce. Correct.
    Mr. Whitfield. OK. I see my time is about expired, Mr. 
Chairman.
    Mr. McNerney [presiding]. Thank you, Mr. Whitfield.
    The chairman stepped out for a minute and asked me to step 
in his seat while he is gone.
    First of all, again, I want to thank the witnesses for 
coming forth and testifying, very compelling words that you 
have spoken this morning. You know, when coal-fired plants are 
required to scrub their emissions from mercury and other 
sulfates and so on, I can't imagine how people would think that 
the fly ash is perfectly safe, but apparently we have some 
evidence here this morning. Ms. Whitaker-Pierce, I would like 
to ask if you think that Mr. McCabe's work that brought light 
to the dangers there, if he hadn't done that investigative 
work, do you think you would still be in the dark about the 
risks and dangers?
    Ms. Whitaker-Pierce. Well, I am still in the dark, but 
there is no doubt that he is our knight in our shining armor. 
We had this construction going on in our backyard for 7 years 
and really thought that it was safe. So yes, had he not brought 
this to light, we would still be drinking the water, and we owe 
him a huge debt, yes.
    Mr. McNerney. And so you would be facing potential health 
problems, you and your family and your neighbors, so he does 
deserve a certain amount of thanks for that, a lot of thanks.
    Ms. Whitaker-Pierce. Yes, sir, he does, and we are not out 
of harm's way yet. We had been drinking that stuff for 5 years 
and are still using it for various purposes in the home.
    Mr. McNerney. Thank you.
    Ms. Queen, you mentioned that tests showing arsenic, iron, 
manganese and sulfates were leaching at dangerous levels but 
that these tests were not shared with the community. Is that 
right, the tests showing that these substances were leaking 
into your water but you were not notified of the test results?
    Ms. Queen. Not in the beginning but later on we did. 
Someone came to the door to say that the water, you know, was 
going to be tested and we should stop drinking the water, and 
right away--not right away they started to bring in bottled 
water for everybody except for over on the other side of the 
road they put hoses out but the hoses froze so they got bottled 
water too, but we are still getting bottled--they made it 
right. They are going to put city water in to everybody that 
had well water. We are getting city water hookup and it hasn't 
come yet. They started, city water hookup and no water bill for 
as long as you own the home, and I still get bottled water 
today every 2 weeks. So they made right on--the power company 
did.
    Mr. McNerney. Thank you. Now, when did you first started 
noticing the dust and started feeling that that was being a 
hazard, that that was hazardous to you and your family?
    Ms. Queen. When I first moved there, I noticed, but we just 
cleaned the house, you know. We just cleaned it up. You know 
how it would get on the house and on the porch and we started 
cleaning it up, and then after it came out in 2007, then we 
realized, oh, that is not good, you know.
    Mr. McNerney. So you were breathing it in for years 
basically without knowing that it was dangerous?
    Ms. Queen. No, I didn't know anything about it.
    Mr. McNerney. Mr. Hunt, thank you again for your testimony 
and thank you for your children's service to our Nation. Would 
you say that the behavior of PNM and the State agencies was 
conducted in ignorance or do you think that they knew the 
dangers and still prevented action from being taken on your 
behalf?
    Mr. Hunt. To tell you the truth, I feel it was criminal, 
and there is one thing I will say about the man that asked if 
we ever tried to take legal action. We tried to take it to 
court and I have only got an 8th-grade education, and what 
happened when it was all said and done, our lawyer was sitting 
up there testifying against us and we refused to accept the 
settlement, which was $190,000, and we wrote on the release we 
are signing this against our will under duress and 
intimidation, and went down and filed it at the county clerk's 
office to make it a public document information. And, you know, 
bless their hearts, they went down and said it was a nuisance 
litigation. It cost me $73,300 for a tax attorney to keep from 
losing everything I owned.
    Mr. McNerney. Was the local media, the Albuquerque Journal 
or----
    Mr. Hunt. The only thing they are out for is mainly sell 
advertising, and the reason why we subscribe to the paper is 
just to read the obituaries and the advertisements. Like I say, 
I could have lost everything I own.
    Mr. McNerney. It looks like my time has expired, and the 
first panel has finished, so your testimony has been very 
beneficial. Thank you.
    It is now time for the second panel to step forward.
    Mr. Hunt. I have been waiting 28 years for this date. Thank 
you.
    Mr. McNerney. Would all the second panel witnesses please 
take their seats at the testimony table, please? Now, we have 
the second panel in front of us and I would like to introduce 
the witnesses and then I will ask for their testimony. First we 
have Lisa Evans, who is an attorney specializing in hazardous-
waste law. Ms. Evans has been active in hazardous-waste 
litigation advocacy for over 25 years and is an expert on coal 
ash issues. She has been a project attorney for Earthjustice 
since 2006. Prior to Earthjustice, Ms. Evans worked on toxic 
coal waste for the Boston-based nonprofit Clean Air Task Force. 
Ms. Evans began her career as an assistant regional counsel at 
the Environmental Protection Agency region I. Ms. Evans, you 
can begin your testimony when you are ready.

   STATEMENTS OF LISA EVANS, SENIOR ADMINISTRATIVE COUNSEL, 
  EARTHJUSTICE; MARY A. FOX, PH.D., MPH, ASSISTANT PROFESSOR, 
 JOHNS HOPKINS BLOOMBERG SCHOOL OF PUBLIC HEALTH; KEN LADWIG, 
SENIOR PROGRAM MANAGER, ELECTRIC POWER RESEARCH INSTITUTE; AND 
         DONALD McGRAW, M.D., PITTSBURGH, PENNSYLVANIA

                    STATEMENT OF LISA EVANS

    Ms. Evans. Thank you. Members of the subcommittee, thank 
you for holding this hearing to examine the threats posed to 
our health and environment by coal ash, the hazardous substance 
generated by power plants that burn coal.
    When mismanaged, this toxic waste damages the health and 
environment of Americans nationwide by poisoning drinking 
water, fouling the air and destroying aquatic ecosystems. 
Federal action on this issue is imminent. Last March, EPA 
Administrator Lisa Jackson made a commitment to publish a 
proposed rule governing the disposal of coal ash by year's end. 
My testimony today recognizes the primary goal of this 
impending rule: the protection of human health.
    The committee has heard today from witnesses whose health 
and the health of their families and neighbors have been 
seriously compromised by exposure to the toxic contaminants in 
ash. Today's witnesses represented three separate instances of 
coal ash contamination but they have three important things in 
common. First, dry dumping of coal ash, not wet disposal, 
caused serious harm. Much of the focus this year has been on 
the deadly dangers posed by wet ash ponds. Wet disposal has 
drawn national attention since the cataclysmic failure of the 
TVA dam, whose release of over 1 billion gallons of toxic 
sludge was 100 times the size of the Exxon Valdez spill. But 
today it is significant to note that dry disposal and release 
of dry ash is a cause of damage. This is not surprising. EPA 
has identified a significant threat from dry disposal in 
unlined landfills, estimating that such disposal can result in 
a risk of cancer 50 times EPA's regulatory goal.
    Second, at each site State law was woefully inadequate to 
protect the health of the affected communities. Today, 
regulation of coal ash is left totally up to the States but in 
New Mexico, Virginia and Maryland, where the witnesses reside, 
the States failed to put in place even the most basic 
safeguards. In none of these States, not even household garbage 
would be allowed to be disposed of in the manner that ash was. 
In these States and in most of the States in the United States, 
improper, unsafe and ultimately harmful disposal of toxic ash 
is permitted and sometimes even encouraged.
    Third, the witnesses and their communities were harmed 
economically. While the focus today is properly on health, 
significant damage to communities occurs when cheap disposal is 
unfettered by federal law. Today you heard how Mr. Hunt, a 
sheep rancher, lost his herd, how the housing values in Robin 
Pierce's community have plummeted and how Gayle Queen may 
tragically lose her home to foreclosure. These economic 
hardships produce stress that tears at the fabric of our 
community. The dumping of ash in all three situations was the 
cheapest route for industry but the true costs were borne by 
these witnesses and their neighbors.
    As a former EPA attorney, I worked to enforce the Resource 
Conservation Recovery Act. This experience gave me a deep 
appreciation of the statute's fundamental goal. In one word, 
the driving force of RCRA is prevention. Congress passed RCRA 
in 1976 to put in place regulations to prevent in the first 
instance the mismanagement of waste in order to prevent the 
migration of toxic chemicals. Further, in 1980, Congress 
explicitly directed EPA to require safe disposal of coal ash. 
But for decades, nearly 30 years, EPA has failed to promulgate 
national regulations and this omission is huge and dangerous. 
EPA tells us that in 2008 U.S. electric utilities produced 136 
million tons of coal ash. This is enough ash to fill the 
boxcars of a train from this room to Melbourne, Australia, and 
this amount is rapidly climbing as we capture more toxics like 
mercury and other hazardous metals at the power plant stacks.
    The bright spot today is that the prevention of harm from 
the dumping of ash is a problem we know how to solve. Isolation 
of toxic waste from water in engineered landfills is 20th 
century technology at best. Thus, the essential next step is 
for EPA to promulgate federally enforceable regulations that 
guarantee that all U.S. citizens are protected from the harms 
posed by mismanagement of ash. Only under subtitle C of RCRA 
will all States be required to adopt minimum disposal standards 
that protect the health of all living near coal ash dump sites.
    In sum, I respectfully ask the subcommittee to end the 30-
year impasse and encourage EPA to promulgate federally 
enforceable regulations that will prevent the harm that these 
witnesses have suffered from occurring again.
    About 2 years ago, I held Mr. Hunt's infant granddaughter, 
and I would like nothing better than to guarantee to her that 
what happened to her grandfather will not happen to her family 
in Waterflow, New Mexico, nor to Mrs. Queen's grandchildren in 
Gambrills, Maryland, nor to Ms. Pierce's children in 
Chesapeake, Virginia. This subcommittee may have a hand in 
making the same guarantee.
    Thank you again for the opportunity to comment on this 
critically important issue and thank you especially for 
allowing the witnesses in the previous panel to have their 
voices heard.
    [The prepared statement of Ms. Evans follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. McNerney. Thank you, Ms. Evans.
    The second witness I would like to call is Mary Fox, Dr. 
Mary Fox. She is an assistant professor of policy and 
management at the Johns Hopkins Bloomberg School of Public 
Health. She is part of the core faculty of the school's Risk 
Sciences and Public Policy Institute and her research focuses 
on the human health effects of exposure to chemical mixtures. 
Dr. Fox received her Ph.D. in environmental and occupational 
health policy from the Johns Hopkins Bloomberg School of Public 
Health. Ms. Fox, please begin your testimony when you are 
ready.

                    STATEMENT OF MARY A. FOX

    Ms. Fox. Thank you, and good morning. I appreciate the 
opportunity to address the subcommittee today.
    There are a few important things to know when addressing 
the health impacts of coal combustion waste. First, coal 
combustion waste is a complex mixture of well-documented 
hazardous substances. The types of and severity of health 
effects of coal combustion waste constituents range from benign 
and cosmetic changes to organ function changes to cancer. As a 
Nation, we produce a large volume of waste. The uses and types 
of disposal may allow distribution into the broader 
environment. Taken together, these considerations present us 
with a public health protection challenge.
    Some examples of the health effects associated with 
specific combustion waste constituents include cancer 
associated with arsenic, neurological effects associated with 
aluminum, lead and manganese, kidney effects from barium and 
mercury, effects on the gastrointestinal system related to 
beryllium, and copper. It is important to note that multiple 
coal combustion waste constituents contribute to certain health 
effects. Exposure to combinations or mixtures of these 
constituents may increase the risk of developing these health 
problems.
    As we have seen in some of the pictures this morning from 
the particular sites, people can come into contact with coal 
combustion waste through breathing if the dust is in the air or 
through drinking water if constituents have leached from a 
disposal site into groundwater that is tapped by drinking-water 
wells. And as we have heard, not far from here in Gambrills, 
Maryland, coal combustion waste was used to reclaim a former 
sand and gravel pit. Constituents of the coal combustion waste 
reached the drinking-water wells of nearby residents and 
sampling by the county health department found concentrations 
of aluminum, arsenic, beryllium, cadmium, lead, manganese and 
thallium above drinking-water standards in some wells.
    It is difficulty to study and therefore accurately quantify 
the population-level health impacts of coal combustion waste 
exposure. Three of the common coal combustion waste management 
practices, landfill, surface impoundment or use in reclamation 
of mines, result in localized disposal. Communities surrounding 
such disposal sites are typically small. Proximity to the coal 
combustion waste disposal site will likely spur interest in 
evaluating community health. Unfortunately, systematic health 
effects research in any one small community will have limited 
statistical power to detect changes in health outcomes. An 
absence of traditional epidemiological studies, human health 
risk assessment methods are available to evaluate population 
exposures to multiple contaminant mixtures. Because coal 
combustion waste is a complex mixture of constituents, risk 
assessment methods will be essential to evaluating the health 
risks of exposure to coal combustion waste.
    And let me conclude with a few key points. Coal combustion 
waste is a complex mixture that can be mobilized in the 
environment, depending on the uses and disposal methods. People 
can be exposed to coal combustion waste through breathing or 
inhalation, direct contact and ingestion. Health effects of 
exposure will be underestimated if we ignore the potential for 
simultaneous exposure to multiple components of the mixture and 
prevention of exposure through better management of the waste 
is ultimately the most sound public health approach.
    Thank you again for the opportunity to speak with you this 
morning.
    [The prepared statement of Ms. Fox follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Markey. Thank you, Dr. Fox, very much.
    Our next witness is Ken Ladwig. He is senior project 
manager at the Electric Power Research Institute, responsible 
for research on the management and use of coal combustion 
waste. Since joining EPRI in 1999, he has worked on various 
aspects of coal waste and groundwater research including the 
potential for environmental release, disposal site management 
and coal waste options. We welcome you, sir. Whenever you are 
ready, please begin.

                    STATEMENT OF KEN LADWIG

    Mr. Ladwig. Thank you, Mr. Chairman. I appreciate the 
opportunity to provide testimony to this subcommittee.
    At EPRI, we have been engaged in coal combustion product 
research both disposal and use for over 30 years. Our goal in 
meeting with legislative staff recently and attending this 
hearing is to ensure that all pertinent technical information 
is available to those that may be involved in this important 
decision-making process.
    In my brief time today, I will focus primarily on coal ash, 
and I believe it was Congressman Whitfield that said that it is 
confusing to hear coal ash referred to both as a toxic sludge 
or something of high toxicity, and on the other hand hear it 
referred to as being the same as soil. I hope to provide some 
illumination on that topic, and as usual, I think the answer is 
probably somewhere in the middle.
    Coal ash is derived from the inorganic minerals in coal, 
and as such its element composition is similar to the 
composition of rocks and soil, so that is inevitable. Trace 
metals make up less than 1 percent of the total composition. 
However, while the trace elements are qualitatively the same as 
those in rocks and soil, they are enriched slightly relative to 
rocks and soil and therefore the material does need to be 
managed. The toxicity characteristic leaching procedure, TCLP, 
is the leaching test that has been used to draw the line 
between hazardous and non-hazardous waste under RCRA since 
1990. In samples from more than 30 power plants in testing we 
have done at EPRI, no coal ash samples exceeded any TCLP limits 
for any trace metals. These data are consistent with data from 
U.S. EPA. We have also compared leachate from fly ash to 
leachate from other non-hazardous waste such as metal slags and 
found them to be similar. There are literally hundreds of other 
laboratory leaching protocols that have been used by EPRI and 
other researchers to evaluate coal ash and there is quite a bit 
of disagreement among the technical community as to which is 
the best procedure. We are coordinating with EPA on 
interpretation and use of a new set of leaching protocols that 
offer a number of benefits in understanding CCP leaching 
mechanisms. However, the tests produce a lot of data that 
requires careful evaluation and application on a site-specific 
basis. Indiscriminate use of selected results from these 
complicated tests is both misleading and inaccurate.
    Power plants have been generating and managing coal ash for 
more than 60 years. EPA released a report in 2007 describing 67 
CCP management sites with either groundwater or surface water 
impacts characterized as proven or potential damage cases. Most 
of these damage cases represent older facilities without 
liners, onsite releases and low-toxicity constituents. 
Remediation is actively occurring or has been completed at 
nearly all of the EPA damage case sites. Conversely, a DOE EPA 
report recently found that nearly all new CCP disposal cells 
built between 1994 and 2004 were lined and included groundwater 
monitoring networks. Several States such as Wisconsin have had 
successful non-hazardous disposal requirements in place for 
CCPs for many years.
    The physical and chemical properties of CCPs make them 
valuable raw materials for many construction and geotechnical 
applications, and I think from the comments I have heard today, 
we all agree that using the CCPs in safe applications is the 
best outcome. In 2007, over 50 million tons of CCPs were used 
rather than disposed. The primary uses for fly ash are as an 
ingredient in concrete and cement and use in geotechnical 
fills. FGD gypsum is largely used as a direct replacement for 
rock gypsum in panel products, and U.S. EPA, USDA and Federal 
Highway Administration are all actively involved in CCP use.
    We recently worked with the Recycling Materials Resource 
Center to use lifecycle analysis programs to quantify the 
environmental benefits of using CCPs in sustainable 
construction. Based on 2007 data, using CCPs in place of mined 
materials saved over $160 trillion BTUs in energy consumption, 
which is roughly the equivalent of the amount of energy used in 
1.7 million homes, or a decent-sized city, 32 billion gallons 
in water consumption and 11 million tons in greenhouse gas 
emissions, and that equates to about taking two million autos 
off the road in a year. In addition, use rather than disposal 
saved a land area the size of Central Park in New York in 2007.
    In conclusion, the Kingston release made coal ash a front-
page news item and we are a lot more aware of some of the 
issues surrounding coal ash. What we need to do now is define a 
clear path forward that ensures safe disposal and allows for 
continued growth in CCP use. This will require continuing to 
fix problem sites such as Kingston and the damage cases, and I 
believe there was a hearing on Kingston yesterday that 
presented the progress that has been made on that site in just 
a year. And along with that, we need to identify and implement 
components of successful disposal site designs and practices. 
This is not an intractable for difficult task, and I agree with 
Lisa that there are technologies out there for dealing with the 
disposal of these materials. There are many examples of 
successful CCP disposal sites in all parts of the country right 
now.
    Finally, we need to continue to grow the use of these 
materials in applications that are demonstrated to be both safe 
and of value. Every ton that is used rather than disposed 
provides savings in energy, water, greenhouse gas emissions, 
land area and natural resources. Thank you.
    [The prepared statement of Mr. Ladwig follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Markey. Thank you, Mr. Ladwig, very much.
    Our final witness, Dr. Donald McGraw, is a practicing 
physician in Pittsburgh, Pennsylvania. Dr. McGraw has 30 years 
of experience in occupational and environmental medicine and 
has received a master's degree in public health from Johns 
Hopkins University. We welcome you, sir. Whenever you are 
ready, please begin.

                   STATEMENT OF DONALD McGRAW

    Dr. McGraw. Thank you, Mr. Chairman.
    I would like to first say that I grew up in a small town in 
southeastern Ohio to a family of farming, coal mining and steel 
working people. When I grew up, we had a coal-fired furnace 
which I stoked every morning. I shoved the coal in as a lad 
through a window into the basement and I helped my grandfather 
dump the coal ash on our garden, which grew wonderfully, as the 
Congressman from Florida mentioned earlier. When I left the 
area to attend school, I ended up back in Pittsburgh. I have 
been there for some 30 years now. I serve on the faculties of 
the University of Pittsburgh Schools of Medicine and Public 
Health and have taught medical students and residents for 
several decades. I previously was at least briefly on the 
faculty at Johns Hopkins prior to coming home. I am on the 
attending medical staff at a number of prominent area 
hospitals. I see patients in those hospitals, in clinics, in 
their worksites and in their homes. I have been in coal mines, 
steel mills, coal tar plants. I have been on coke ovens. I have 
been just about everywhere that coal has been used.
    Only hearts of stone could fail to be moved to compassion 
by the stories and personal plights of the three families who 
spoke before but tragedies occur all too frequently in the form 
of tsunamis or typhoons in Thailand, the Philippines and 
mainland China, hurricanes like Katrina in New Orleans and 
Biloxi where I have participated in the aftermath and helped in 
at least a small way with my church in the cleanup. Hurricane 
Ike in Galveston, earthquakes in Peru and Russia and elsewhere 
around the world have brought death and devastation. Volcanic 
eruptions in Mexico and elsewhere leave in their wakes tragedy 
that is all too real. But in my experience, the main tragedy in 
coal combustion is the devastating job loss and economic 
devastation in the wake of steel mill shutterings and coal mine 
closures in southwestern Pennsylvania, southeastern Ohio, the 
mountains of West Virginia, Kentucky, Illinois and elsewhere. 
It would be truly a misadventure, a tragic misadventure to 
plunge these people even deeper into economic darkness.
    In the course of my work in 2005, I was asked to see a 
number of individuals including adults and children, a half 
dozen, maybe even more than that, when an accidental spill of 
fly ash occurred in Forward Township not far from Pittsburgh. 
This was a large pile of ash that had been there for probably 
50 years and slid down the hill into this tiny community and 
coated the ground where these people lived a foot or two in 
depth, and this was a soft, flaky ash, much like you would see 
coming out of any coal-powered facility. These people 
unfortunately waded around in it for days, cleaned it, shoveled 
it, swept it, breathed it in their own personal cleanups before 
some attention was paid. The DEP in Pennsylvania is very good 
and they came to the rescue and ultimately that cleanup has 
been underway. I saw those individuals as individual patients. 
I listened to their stories. I evaluated them physically and I 
could find no objective abnormalities in any of those people. 
Simultaneously, or concomitantly, the Allegheny County Health 
Department, part of Bruce Dixon, who is just a marvelous 
physician, examined these people tested their urine, their 
blood, their hair, their nails and could find no evidence of 
any increased exposure to any heavy metals or any medical 
problems. Subsequently, these people were re-examined by the 
county health department in 2009, last spring, and once again 
were given a clean bill of health after extensive evaluation.
    Last year I had the opportunity to go to Tennessee, and I 
am not sure why I was asked other than the fact that I had been 
involved with individuals from Pittsburgh and vicinity. I went 
down to Kingston and saw the massive upheaval down there that 
was caused by the release of a large stock of coal fly ash in a 
retention pond, which gave way after a very long period of 
heavy rain, much like the weather caused the problems in 
Forward Township. This ash slid largely into the waterways 
nearby but it did slide into the yards and homes of I think 
probably about five or six families whose houses were certainly 
adversely affected. I also had the opportunity aside from 
touring the area not to examine any of these individuals but to 
participate in an open meeting at a local school in which any 
community residents or interested parties could attend and 
probably some 150 people or some came, some of whom were 
residents and some others were just interested, and asked 
questions about the potential adverse health effects of their 
exposure in this setting, and I tried to reassure them that 
their exposure now and in the future was extremely unlikely to 
be detrimental to their personal health, the health of their 
children, their animals, et cetera.
    In the course of my practice, I have had the opportunity to 
address the potential toxicity of heavy metals such as arsenic 
and a wide variety of settings. I have examined hundreds, if 
not thousands, of individuals whose work has required that they 
be in the presence of compounds like arsenic and coal and coal 
tar and coke oven emissions and other potentially toxic 
materials, and as it was pointed out earlier, all of these are 
natural occurring minerals. They occur in the substrata of the 
earth. They are released by volcanic eruptions, by forest fires 
in far greater amounts than are released as a result of 
industrial production. Arsenic----
    Mr. Markey. If you could summarize, please, Dr. McGraw?
    Dr. McGraw. Yes. I am sorry.
    Arsenic is present in water, in high concentrations in 
mineral springs all over North America, and we eat it every day 
in our foodstuffs and we drink it in our water. That is not to 
say that it is not potentially toxic but so are a wide variety 
of other materials. Cars are dangerous too but if we ban them 
or extremely limit their use, it would be devastating to the 
economy of this country.
    [The prepared statement of Dr. McGraw follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Markey. Thank you, Dr. McGraw, very much.
    Now we will turn to our questions from the subcommittee. 
Let me ask you, Dr. Fox, I just heard Dr. McGraw talking about 
arsenic, you know, as not a particularly dangerous substance to 
be ingested by human beings. Could you talk a little bit about 
the ingestion of arsenic or other heavy metals over a period of 
many years in terms of what that risk might be to human beings?
    Ms. Fox. Yes. That is a distinction that is useful to make 
in several of the examples I think that Dr. McGraw discussed. 
In Forward Township, for example, and in Kingston, Tennessee, 
those were situations where the exposures were relatively short 
term and sort of the immediate nature of the spill prompted a 
quite rigorous cleanup. In situations as in Gambrills, 
Maryland, that we heard about earlier, the waste has been 
disposed in this former sand and gravel pit since the mid-1990s 
approximately, and the contamination of the groundwater there 
may have been going on for years and may continue for some 
time. So chronic exposure to arsenic and some of the other 
constituents is associated with a number of health problems 
that I already discussed.
    Mr. Markey. Do you agree with that, Dr. McGraw?
    Dr. McGraw. Which part?
    Mr. Markey. The part where she is saying that continuous 
exposure to these constituent elements over a period of time 
are related to serious medical consequences.
    Dr. McGraw. That all depends on the concentration, the 
dose, the area of exposure, how it is taken in. Our body has 
numerous capabilities for eliminating potential toxins from it. 
We are very well constructed to manage our health despite 
exposure to many natural elements, and while there are huge 
concentrations of materials like arsenic sadly in the well 
water in places like Taiwan and Bangladesh, they are many 
degrees of magnitude higher than any that might ever be 
potentially even occurring in the United States in any 
conceivable way.
    Mr. Markey. So you are saying that the hundreds of 
thousands of people who died in Bangladesh related to ingestion 
of arsenic is something that we shouldn't be concerned about 
here as a warning to us?
    Dr. McGraw. I am not sure of those numbers, Mr. Markey.
    Mr. Markey. But you cited Bangladesh, so hundreds of 
thousands of people----
    Dr. McGraw. Perhaps I would have to check and see what 
those numbers were, but----
    Mr. Markey. The World Health Organization says that 
hundreds of thousands of people have died in Bangladesh. You 
cited Bangladesh, relating it to your World Health Organization 
analysis.
    Dr. McGraw. Correct.
    Mr. Markey. Do you dispute the World Health Organization?
    Dr. McGraw. No, no, I don't, but----
    Mr. Markey. So take the arsenic findings there and 
extrapolate them for the purposes of what lesson you want us to 
draw from Bangladesh in terms of exposure to arsenic, please.
    Dr. McGraw. Those levels in those countries are hundreds 
and hundreds and thousands of micrograms per liter relative to 
our required water levels of one-hundredth of a microgram per 
liter.
    Mr. Markey. But the EPA and the World Health Organization 
have identified arsenic as a carcinogen. Do you disagree with 
that finding?
    Dr. McGraw. No, I don't, Mr. Chairman. Let me give you----
    Mr. Markey. We are trying to find----
    Dr. McGraw. If I may provide you with an analogy, thousands 
of women and possibly men are injected on a daily basis with 
botulinum toxin, the deadliest material known to humankind. 
They are injected in their faces for cosmetic purposes. One-
eighteenth of a millionth of an ounce is a lethal dose for a 
human being and yet it goes into syringes and into people's 
bodies on a daily basis. There are many, many toxins that we 
either voluntarily or involuntarily expose ourselves to on a 
daily basis. Once, again, it depends on the dose, the level, 
and in this country, those levels will never be replicated----
    Mr. Markey. Exactly.
    Dr. McGraw [continuing]. Ever.
    Mr. Markey. No, no, I don't think that is so. I think what 
we are learning here and we are seeing this in the testimony of 
the witnesses beforehand that if enough of it is placed in 
areas that are adjacent to populated areas that it can leach 
into the water system and over a sustained period of time there 
could be a dramatic impact on human beings as they ingest this 
material. You were referring to earlier about a one-time or 
two-time exposure. Here we are talking about something that 
is----
    Dr. McGraw. With all due respect, Mr. Chairman, three 
cases, as tragic as they might be, do not represent 
epidemiology. I have looked at countless workers who have been 
working for decades with exposure to these and other materials 
and seen no evidence of any harm, and they certainly were 
exposed at far higher levels than the general public would 
ever----
    Mr. Markey. You know, 3,000 young people are going to begin 
smoking today in America. One thousand of them will die from 
smoking-related illnesses and two will not.
    Dr. McGraw. I am not sure I see the point.
    Mr. Markey. But the one that is is really is our concern, 
so you may--and again, you are not an epidemiologist, I don't 
think.
    Dr. McGraw. I have studied it extensively and I do 
appreciate it. I read the literature regularly.
    Mr. Markey. I appreciate that, but you are taking personal 
examples and extrapolating, which is different from actually 
presenting an epidemiological study.
    Dr. McGraw. I have read the epidemiologic literature.
    Mr. Markey. Ms. Evans, can you tell us if there is just a 
small number of examples here or are there more people like the 
witnesses that we saw on the first panel that represent the 
population that we are concerned with?
    Ms. Evans. Absolutely. Thank you. I would say we have a 
country full of examples similar to the people who spoke today. 
There are so many unlined dump sites, whether they be unlined 
ponds or unlined landfills or simply holes in the ground by 
gravel pits and mines where we place this waste. For 30 years 
having unregulated disposal, it is resulted in a lot of waste 
sites that present dangers to the general public. The EPA has 
identified 71 sites so far as Ken referenced where there has 
been contamination of ground and surface water in 23 States. 
That is a drop in the bucket, and EPA does admit that, and one 
reason that we can say with some certainty that it is a drop in 
the bucket is that so many of these dump sites are not 
monitored, and if you don't monitor the dump sites, you don't 
know what is leaving them. So I would say that in my experience 
in numerous communities over the last 10 years, there are 
certainly many, many communities that----
    Mr. Markey. Thank you, Ms. Evans, very much. I think----
    Dr. McGraw. If I could respond, Mr. Chairman, just briefly 
to Ms. Evans' comment, she identified sites but I challenge her 
to identify numbers of individuals or communities where it has 
been demonstrated objectively, medically that they have 
developed either life-threatening illnesses or have died as a 
result of exposure to coal tar ash. I challenge her because it 
doesn't exist. I have seen people die a thousand different 
ways, Mr. Chairman, but I have never seen one either die or 
become ill from exposure to coal ash.
    Mr. Markey. Ms. Evans?
    Ms. Evans. I would be happy to provide the subcommittee 
with medical reports from people who--and this mostly occurs in 
litigation where they have to draw the connection between the 
coal ash and the disease, but we do have reports to that effect 
and can submit those to the committee.
    Dr. McGraw. Anecdotal legal cases do not represent 
epidemiology. That is not science. That is law.
    Mr. Markey. Well, I appreciate that, but we also have 
certain other kind of, we call them in the law res ipsa 
loquitur, which is the thing speaks for itself. I think that is 
what we heard from Robin Whitaker-Pierce earlier. The property 
cannot be sold. The entire community is frozen. We have 
widespread health impacts. And to a certain extent, there has 
been a see no evil, hear no evil aspect to this issue over the 
years. So we are just kind of catching up with this issue in 
the same way that we caught up with the tobacco issue as well, 
and I think that the witnesses here today provide very 
compelling evidence that there is a problem here, that long-
term exposure to these elements is dangerous and again, the EPA 
is in the process of completing their recommendations, and when 
they do, we will have them here for the hearing and we will be 
able to ask them those questions.
    Let me turn now and recognize the gentleman from Michigan, 
Mr. Upton.
    Mr. Upton. Thank you, Mr. Chairman.
    Ms. Evans, Mr. Ladwig, we have checked with my Michigan 
utilities as they expose of this ash. I am told that they use 
landfills that are clay lined unlike I guess what now Maryland 
is now pursued in terms of my question for Ms. Queen on the 
last panel. They have monitoring. It requires monitoring of any 
leakage as well. It is regulated as an industrial waste in the 
State of Michigan. And my question is, how many States have a 
similar type of procedure for the disposal of waste? Do you 
know?
    Ms. Evans. The majority of States do not require what you 
just----
    Mr. Upton. So Michigan is more advanced than most States. 
Is that what you are saying?
    Ms. Evans. I would say if you are talking about States that 
require clay liners for all waste disposal units would be in 
the minority but I would also say that the----
    Mr. Upton. And monitoring as well.
    Ms. Evans. And monitoring. What you have----
    Mr. Upton. I want to make sure I don't run out of time.
    Mr. Ladwig, would you concur with that?
    Mr. Ladwig. Not exactly. I don't know the number of States 
that currently have liner requirements. I do know that as I 
said in my testimony, essentially all new facilities built 
between 1994 and 2004 when DOE and EPA did their study all 
employed liners. So either their States are requiring them or 
they are voluntarily installing liners.
    With respect to groundwater monitoring, almost all 
landfills have groundwater monitoring, as far back as the 
1990s. Ponds have had a little bit more checkered history with 
respect to monitoring and it was more like half at that time 
had monitoring in the 1990s when we did a study on this. I am 
not sure what the number is now.
    Mr. Upton. Now, in Michigan, a good share of the waste is 
actually used for highway cement, particleboard, that type of 
thing. In fact, I am aware of a letter that the Michigan 
Department of Transportation sent to the Federal Highway 
Administration saying that this is a good use of the substance 
actually. It performs better with that. A question I think in a 
lot of people's view if we could recycle this somehow in terms 
of a meaningful way. I am told that again in Europe, perhaps as 
much as 80 to 90 percent of the ash is used for this type of 
purpose. In the United States, we are closer to about 40 
percent or about half. The question is, if we classify it as a 
hazardous waste, as some perhaps have suggested, what would 
that do to the efforts to then recycle this versus putting it 
all into a landfill or that type of thing?
    Ms. Evans. Before I respond to the recycling question, let 
me just quickly go back to Michigan's landfill regulations 
because I think it is also in Ken's statement regarding the 56 
facilities that were built between 1994 and 2004 because the 
important point has to be made that all liners are not equal, 
and the requirement that landfills and surface impoundments 
have clay liners was shown by EPA to be insufficient. So the 
standard that landfills and surface impoundments need to have 
composite liners is something that EPA stated in its risk 
assessment and that landfills and surface impoundments that are 
not so lined present an unacceptable risk of migration.
    Mr. Upton. You are saying they need to have a composite?
    Ms. Evans. A composite liner, and the----
    Mr. Upton. And how many States have that today?
    Ms. Evans. Very few have a requirement that all landfills 
and all----
    Mr. Upton. So almost none?
    Ms. Evans. I mean, 50 percent of the States in the United 
States don't require ponds to have any liners.
    Mr. Upton. Moving to my next question, if it was classified 
as a hazardous waste, would in fact we be able to recycle much 
of the material there like we do today? Yes or no.
    Ms. Evans. Yes. EPA has the flexibility to deal with 
recycled waste as solid waste. It can parse out, and under the 
state it can regulate waste that is disposed as hazardous, 
perhaps put----
    Mr. Upton. Would that not add tremendously to the cost and 
therefore diminish the amount that is recycled today?
    Ms. Evans. It shouldn't. If it is going to cost more to 
recycle the waste--I mean if it is going to cost more to 
dispose of the waste, there is going to be an incentive to 
recycle.
    Mr. Upton. Mr. Ladwig, do you have a guess as to what the 
cost would be to the industry, not only to go to a composite-
type liner versus the clay liners that are used today, with the 
monitoring that they have which I think might have resolved Ms. 
Queen's problem because in her testimony, she indicated that it 
went to an unlined site, but how would that impact recycling as 
well?
    Mr. Ladwig. Well, I think you have a couple questions 
embedded there. The costs of moving to hazardous waste 
requirements of these facilities would increase the cost of 
disposal by a factor of 10, would be up into the billions of 
dollars for the utility industry. Thirteen billion dollars I 
think was one estimate that was provided. That is a significant 
cost, and we have done an analysis that the impact of that cost 
as well as the cost of phasing out wet management, what those 
costs would actually do to utilities, how many units it would--
--
    Mr. Upton. It would cost billions of dollars more. That 
would have to be passed along to the ratepayers, right?
    Mr. Ladwig. I would assume so. You know, I am not familiar 
with utility finances.
    Mr. Upton. My time is expired, so just tell me how would 
impact recycling.
    Mr. Ladwig. From everything we have heard and I believe 
USWAG, the Utility Solid Waste Activities Group, has collected 
a number of letters. There are somewhere on the order of 150 to 
200 letters from utilities, marketing companies and users all 
stating very clearly that a hazardous waste designation would 
have a chilling effect on any use just simply because using a 
material when it is deemed hazardous if it goes in one 
direction and usable when it goes in another direction is not a 
workable situation.
    Mr. Upton. Thank you.
    Mr. Doyle [presiding]. The Chair will recognize himself.
    Dr. McGraw, my grandfather got off the boat from Ireland in 
1900 and landed in Pittsburgh. He worked 41 years at Kerry 
Furnace in Rankin. My father followed him in the steel industry 
and worked 31 years at Eggert Thompson in Braddock. I worked 
there two summers and realized that I didn't want to be a 
steelworker. I appreciate the steel industry and coal. All my 
constituents get their electricity from coal in Pittsburgh, and 
I lived my entire 56 years there. We Pittsburghers didn't much 
appreciate Mr. Carnegie dumping all his waste in the 
Monongahela River and the Allegheny River and at one point 
those rivers got very dark and nobody fished in those rivers, 
and regulations finally were put in place that made sure that 
people just didn't indiscriminately dump things into the rivers 
or up into the air. John Surma is a dear friend of mine, the 
current CEO of U.S. Steel, and he will tell you that he thinks 
that a clean environment and a steel industry can coexist. This 
committee is not talking about putting the coal industry or the 
steel industry out of business but what we are saying, that in 
this country there are many States that have no regulations on 
this or very lax regulations. Pennsylvania has been overseeing 
beneficial reuse of coal ash since 1985. We have standards in 
place since 1992. States like Wisconsin have good standards. We 
believe that these industries can coexist with good regulation 
and partnership. So when you said in your testimony that you 
were much more concerned about the job loss in the coal 
industry than you were about the potential health hazards, I 
would tell you that we need to do both. We can protect jobs and 
protect people's lives. That is what we are trying to research 
here on the committee.
    I am familiar with Forward Township. I used to represent it 
for 8 years before redistricting. I am curious, how did you 
come to get involved in the Forward Township case? You 
mentioned you were involved in examining people there.
    Dr. McGraw. I believe that they were referred to me through 
the graduate school of public health at the University of 
Pittsburgh where I have been a faculty member for a long time 
because they knew me as someone who would see anyone for 
virtually any kind of problem, and I believe the chairman of 
the department referred them all to me when they called in to 
his office. You know, I don't disagree with anything you just 
said, Mr. Doyle. I respect the need to have a clean environment 
and certainly want nothing less myself, and I think the 
commonwealth should be particularly proud in having already 
done a good job. But to classify a relatively benign material 
as a hazardous waste would I think lead to a cascade of events 
that would cost jobs and enormous resources to the power 
industry, the coal industry, the steel industry and all the way 
down the line.
    Mr. Doyle. So it is your testimony then that you believe 
coal ash to be completely benign and not a health risk to 
anyone?
    Dr. McGraw. That is correct.
    Mr. Doyle. We could just eat this stuff, and----
    Dr. McGraw. If you put some on my cereal, it might not be 
very tasty but you would have to put it on a long, long time 
before we would get to the point where those poor people in 
other countries are consuming it and would be at risk. So in 
this country, the likelihood of that happening is like being 
struck by lightning.
    Mr. Doyle. I want to be certain about your testimony. You 
talked about the arsenic levels in Bangladesh. You are 
certainly not subscribing to the fact that we should adopt 
Bangladesh water standards here in the United States. I mean, 
you are saying it is OK to drink that much? If that amount of 
arsenic was in the U.S. water, that wouldn't concern you?
    Dr. McGraw. Of course not. All I am doing is contrasting 
and trying to show that with any material, however apparently 
benign, whether it is salt, sugar, arsenic, mercury or anything 
else, there is a does and there is a length of time of exposure 
that is required to cause a potential problem. Presumably in 
these hallowed halls, we probably already met government 
requirements of introducing the appropriate kind of new green 
fluorescent bulbs, all of which contain a particularly lethal 
form of metallic mercury and for which there is no hazardous 
waste reclamation plant in place to my knowledge.
    Mr. Doyle. Right. I understand. My time is starting to run 
out and I have a couple more.
    Dr. Fox, you just heard what Dr. McGraw said. He basically 
says we could eat this stuff and it might not taste so good but 
it is not going to hurt us. What is your reaction to that?
    Ms. Fox. Well, I would like to bring the subcommittee's 
attention to some recent findings from some of my colleagues at 
Hopkins and others that address the issue of sort of typical 
U.S. exposures. There have been research findings in the last 2 
or 3 years of relating arsenic exposure to cancer and also 
diabetes. So there is a growing body of literature that 
reflects the exposure conditions in the United States and 
associates arsenic exposure with some health effects of 
concern.
    Mr. Doyle. Thank you. I see my time is expired. Who is next 
up on the list here? Ed.
    Mr. Whitfield. Thank you, Mr. Chairman, and thank you all 
for being with us this morning.
    Mr. Ladwig, you state that since 1990 that EPRI has used 
the toxicity characteristic leaching procedure protocol which 
is used by EPA to test for the hazardous characteristics of 
eight trace metals that EPA would consider critical to a 
hazardous-waste designation: arsenic, selenium, barium, 
cadmium, silver, chromium, lead and mercury, and that EPRI data 
from all the analysis and tests that they have conducted shows 
no coal ash samples exceeded any of the TCLP limits. Is that 
correct?
    Mr. Ladwig. That is correct.
    Mr. Whitfield. And we know that EPA has looked at this 
issue repeatedly from three or four dates. I don't have the 
dates with me right now of the most recent one but it was 2000 
and even they decided not to classify this as a hazardous 
material. In your tests, were there any types of coal or coal 
mined from certain regions of the country or world that is 
burned here in the United States that you did not test?
    Mr. Ladwig. I couldn't vouch that we have tested every type 
of ash from every coal that is burned, you know, from anywhere 
in the world but we have tested a broad range. We have a very 
representative database.
    Mr. Whitfield. Well, you know, I think the key here today, 
as our chairman stated, that we need a balanced approach here 
because we have to use coal to meet our electrical demands and 
remain competitive in the world and to continue to create jobs 
and not lose jobs. And the thing that bothers me about Ms. 
Evans and the group that she represents, in her testimony she 
says we need a federal standard to police this disposal of ash, 
which I agree with, we do need a federal standard. And then she 
goes on and says even if we get one, it is not enough. So we 
need a federal standard but even if we get one, that is not 
enough. So I think that is the problem that we have, and I know 
we are getting ready to vote, Mr. Chairman, so I will yield 
back the balance of my time.
    Mr. Doyle. Thank you very much, Mr. Whitfield.
    Ms. Evans. May I just take----
    Mr. Doyle. We have votes coming up and we are going to try 
to get these witnesses in so hopefully you will get a chance to 
elaborate, and when we come back we will try to give you some 
more time.
    Mr. Matheson.
    Mr. Matheson. Thanks, Mr. Chairman.
    I have a question for Ms. Evans. In your testimony, you 
highlight that more stringent regulation of coal ash has raised 
State recycling rates significantly. I think you were referring 
probably to Wisconsin.
    Ms. Evans. Yes, I am.
    Mr. Matheson. Does more stringent regulation include a 
hazardous waste subtitle C designation?
    Ms. Evans. Well, there is no subtitle C designation 
currently. It means more stringent--Wisconsin has more 
stringent regulations than its neighbors and its recycling rate 
is about double of the neighboring States.
    Mr. Matheson. In your testimony, you recommend that EPA 
must designate coal combustion waste as hazardous waste under 
subtitle C of RCRA. Is that correct?
    Ms. Evans. That's correct.
    Mr. Matheson. What would be the impact of the recycling and 
reuse efforts in Wisconsin if we end up--if there is federal 
action to regulate coal ash as hazardous waste under subtitle C 
of RCRA?
    Ms. Evans. I don't think it would change. I think that 
there might even be tightening that would have to be done on 
the Wisconsin regulations so there might even be more 
incentive. If costs go up to dispose of waste in mine landfills 
there would be more incentive to find safe reuse.
    Mr. Matheson. The State of Wisconsin actually has a 
different opinion. They have sent a letter from the Department 
of Natural Resources that says, and I will quote, ``If coal ash 
were to be regulated under RCRA subtitle C, the options for 
beneficial using or reusing the ash would be significantly 
impacted and severely limited. So we have to keep looking at 
this, and the balanced option I think that Mr. Whitfield was 
talking about before about what we are trying to do, people 
like the recycling idea but if you go to a hazardous-waste 
designation, you know, there are other consequences to this, 
and I just want to make sure that was on the record.
    Ms. Evans. But I think you are looking at this very black 
and white. There are a lot of hazardous wastes that are 
successfully recycled into products.
    Mr. Matheson. I am looking at it for coal ash waste, not 
for all products.
    Ms. Evans. Right, but you have to realize that EPA has 
flexibility going into this regulatory process and really does 
want to----
    Mr. Matheson. I just want to get on the record that there 
is a potential conflict there, and you suggested that we ought 
to--you know, you log Wisconsin and they are saying don't do 
what you are suggesting we do. I just want that on the record.
    Mr. Ladwig, have you analyzed coal ash in relationship to 
EPA's test to determine if a waste is hazardous under RCRA?
    Mr. Ladwig. Yes, well, we have done the TCLP test. We just 
talked about that.
    Mr. Matheson. And what did you find?
    Mr. Ladwig. We find it always passes the TCLP test. The EPA 
finds that it almost always passes.
    Mr. Matheson. How does coal ash compare to another large 
volume solid waste stream like municipal solid waste?
    Mr. Ladwig. It is roughly on par with that. The risks posed 
by any of these materials that are non-hazardous are roughly in 
the same ballpark.
    Mr. Matheson. Mr. Ladwig, can you describe just quickly 
benefits to the environment from recycling the coal ash?
    Mr. Ladwig. Yes, I listed some of those in my presentation 
but there are benefits in energy savings, water savings, 
greenhouse gas emissions and land use. Those are probably what 
I would call the four primary benefits from an environmental 
perspective and there is obviously cost benefits.
    Mr. Matheson. Dr. McGraw, in your testimony you highlight 
the need to properly and safely contain fly ash wherever it is 
stored or used in some practical application. Do you believe 
that a hazardous waste designation is necessary to properly and 
safely contain coal ash?
    Dr. McGraw. I do not.
    Mr. Matheson. I know that my colleague from Illinois is 
anxious to ask, so I am going to do one more.
    I think that this question about classifying coal ash as 
hazardous waste and the potential to eliminate or at least 
greatly reduce reuse opportunities is an issue that we need to 
talk about as a committee. I think that that conflict or at 
least that potential conflict is something that we need to 
flesh out more. I think that is why it is important we are 
having this hearing. Mr. Chairman, I will yield back.
    Mr. Doyle. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. First, I have a 
unanimous consent for opening statements that all members may 
be included into the record.
    Mr. Doyle. Without objection, so ordered.
    Mr. Shimkus. And also, these are pre-cleared. Unanimous 
consent for letters have been pre-cleared with your staff from 
the ECOS resolution on hazardous waste, the April 1, 2009, 
letter to the EPA from ASTSWMO, September 19, 2009, letter to 
the EPA from the Unions for Jobs and the Environment, and a 
November 17, 2009, letter to EPA from the U.S. Chamber of 
Commerce.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. Without objection, so ordered.
    Mr. Shimkus. Thank you, Mr. Chairman.
    For our panel, do you reject the assertion that the 
Illinois EPA is the closest to the citizens of Illinois and has 
a vested interest in protecting the health of the citizens of 
Illinois? Dr. McGraw, yes or no?
    Dr. McGraw. The State?
    Mr. Shimkus. The State EPA.
    Dr. McGraw. The State EPA I think would have the most 
direct relationship or familiarity with the issue.
    Mr. Shimkus. Dr. Fox, do you reject the fact that the 
Illinois EPA's mission is to protect the health and safety of 
the citizens of the State of Illinois?
    Ms. Fox. No.
    Mr. Shimkus. Ms. Evans, state of Illinois EPA. I am just 
talking about the State of Illinois.
    Ms. Evans. Yes, and as a former federal EPA employee, I 
would say that there is often a conflict between the State EPA 
and----
    Mr. Shimkus. My question is, do you reject the premise that 
the State of Illinois EPA does not have the interests of the 
citizens of the State in health and safety issues?
    Ms. Evans. They might have the interests but not always the 
political power to regulate the----
    Mr. Shimkus. So you are saying that they don't have the 
interests of the citizens of the State of Illinois?
    Ms. Evans. They have the interest. They might have the 
political will to properly----
    Mr. Shimkus. So you reject this letter from the Illinois 
EPA that says that they can best regulate this?
    Ms. Evans. Yes.
    Mr. Shimkus. OK. Thank you.
    Mr. Ladwig?
    Mr. Ladwig. No, I don't reject that.
    Mr. Shimkus. Thank you very much.
    Dr. McGraw, part of our job is to make the complex simple 
as possible so that we can help educate our constituents and 
educate ourselves. Epidemiologic, define.
    Dr. McGraw. That is the study of populations and in 
contrasting groups of individuals within a population, a 
designated population who have a specific injury or illness and 
comparing them with those individuals who don't, and trying to 
determine as a result what might have led to that specific 
problem whether there was a----
    Mr. Shimkus. So you are familiar with the scientific method 
in essence?
    Dr. McGraw. Yes, I studied epidemiology as part of my 
training.
    Mr. Shimkus. And the scientific method creates--and we have 
been dealing with this with the whole Climate Gate debate--is 
that there are facts. There are basic facts that can be 
gathered and reviewed to make an analysis on what is going on, 
and that is what you were testifying to and that that is what 
your testimony says.
    Dr. McGraw. Facts versus presumption, which is what I am 
saying.
    Mr. Shimkus. And that is why I am trying to make the 
complex simple because we always talk about arsenic. We have 
talked about arsenic in this committee since I have been a 
member. An Olympic-sized swimming pool filled with arsenic 
would be hazardous to human health. Wouldn't you agree, Dr. 
McGraw?
    Dr. McGraw. Filled, yes, it would----
    Mr. Shimkus. Filled completely.
    Dr. McGraw. It would sink to the bottom and you probably 
wouldn't get much if you were swimming in it because----
    Mr. Shimkus. Now, let me ask this----
    Dr. McGraw [continuing]. It is not soluble in water.
    Mr. Shimkus. Let me ask, A, Olympic-size swimming pool 
filled with water with one eye drop of arsenic, would that be 
hazardous to human health?
    Dr. McGraw. Of course not.
    Mr. Shimkus. So this whole debate is this. Using real 
science to determine the health effects, and at what cost. It 
would probably be cheaper to drain and Olympic-size swimming 
pool filled with arsenic than it would be to take out the one 
eye dropper of arsenic, and the issue is, at what cost based 
upon what science. We are having this same debate on the 
Climate Gate issue. When the scientists can't give us the 
facts, then you go on emotion, and when emotions run rampant it 
costs the jobs that you are referring to that I refer to in 
this whole issue. So I applaud my colleague, Mr. Matheson, for 
trying to get to the point of we better be careful not solely 
to run on emotion because there is a cost-benefit analysis of 
all this stuff, and we all understand that, so let us get to 
the facts. And I think why your testimony is so compelling is 
because you are doing it based on your great credentials, 
epidemiological background and on the facts of study of the 
health of individuals, and I want to thank you for your time 
and I yield back my time, Mr. Chairman.
    Mr. Markey. The gentleman's time has expired. We apologize 
to you for the floor schedule. We have 45 minutes of roll calls 
till our votes begin out on the House Floor, and that is 
unfortunate.
    So this is a very important hearing. It is in anticipation 
of the Environmental Protection Agency promulgating new rules 
that will deal with public health-related issues here but of 
course the question of jobs is also part of this discussion. We 
have heard here today that there are materials that are 
hazardous. They have poisoned people. They have destroyed homes 
and have contaminated the environment. No one, as Mr. Doyle 
said, is talking about shutting down the coal industry. What we 
are talking about is prohibiting unsafe disposal practices from 
being allowed to continue so that we can ensure that there 
continues to be safe commercial use of all of the materials 
that are in question. The EPA can use its statutory authority 
to craft a rule that both protects public health and allows for 
safe practices to continue without causing jobs to be lost. We 
can do both. Mr. Doyle has made that point. We did both when we 
decided that we were going to regulate clean water, safe food. 
We don't want to prohibit but at the same time we want to 
ensure we put in those protections for public health.
    So we thank each of the witnesses. We want to continue to 
work with you. We apologize to you, Ms. Evans, and to others. I 
know you have other points which we would like to include in 
the record in its written form if you would like to provide it 
to the committee. This hearing is adjourned. Thank you.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre></body></html>
